APPENDIX

1a
APPENDIX A
________________________
Corrected Opinion Page Filed May 24, 2019 by
Clerk of Supreme Court
Filed 4/11/19 by Clerk of Supreme Court
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
_________________________
2019 ND 103
_________________________
Barry C. Garcia,

Petitioner and Appellant

v.
State of North Dakota,
Respondent and Appellee
_________________________
No. 20180316
_________________________
Appeal from the District Court of Cass County, East
Central Judicial District, the Honorable Wade L.
Webb, Judge.
AFFIRMED

2a
Opinion of the Court by Jensen, Justice
_________________________
COUNSEL
John R. Mills (argued), San Francisco, CA, and
Samuel A. Gereszek (appeared), East Grand Forks,
MN, for petitioner and appellant.
Birch P. Burdick, Fargo, ND, for respondent and
appellee.
Todd E. Zimmerman, Benjamin J. Hasbrouck, and
Aubrey J. Fiebelkorn-Zuger, Fargo, ND, for amicus
curiae The Promise of Justice Initiative.
S. Bradley Perkins and Namrata Kotwani, San
Francisco, CA, for amicus curiae The Promise of
Justice Initiative.
_________________________
OPINION
Jensen, Justice.
[¶1]

Barry Garcia appeals from a district court

order denying his request for a new trial and
determining N.D.C.C. § 12.1-32-13.1 does not apply
to his criminal sentence. We affirm the order of the
district court denying Garcia’s request for a new
trial and determining N.D.C.C. § 12.1-32-13.1 is not
applicable to his sentence.

3a
I.
[¶2]

In 1996, Garcia was found guilty of the

offense of murder, committed while he was a
juvenile, and he was sentenced to life imprisonment
without parole. Garcia’s sentence was affirmed on
appeal. State v. Garcia, 1997 ND 60, 561 N.W.2d
599.
[¶3]

In 2016, Garcia filed a petition for post-

conviction relief arguing that imposing a sentence of
life without parole on a juvenile violated the
constitutional standards set forth by the United
States Supreme Court in Miller v. Alabama, 567
U.S. 460 (2012) and Montgomery v. Louisiana, 136
S.Ct. 718 (2016).

The district court denied his

petition and Garcia appealed. See Garcia v. State,
2017 ND 263, ¶ 10, 903 N.W.2d 503.
[¶4]

While Garcia’s appeal was pending, the North

Dakota legislature passed HB 1195, which was
enacted on April 17, 2017 as N.D.C.C. § 12.1-32-13.1
and effective August 1, 2017. Garcia, 2017 ND 263,
¶ 32, 903 N.W.2d 503.

Section 12.1-32-13.1,

N.D.C.C., allows juvenile offenders who have been
in state custody for more than twenty years to seek
relief from their sentence. Sentencing relief under

4a
N.D.C.C. § 12.1-32-13.1 requires consideration of the
factors set forth in Miller and Montgomery. Garcia
requested

this

Court

to

either

rule

on

the

applicability of the provision or remand the issue to
the district court.

Garcia, at ¶ 30.

This Court

declined to rule on Garcia’s request to apply
N.D.C.C. § 12.1-32-13.1 because it had not been
raised in the district court, and ruled without
remanding the issue to the district court. Id. at ¶
31.
[¶5]

Following the appeal of the 2016 denial of

post-conviction relief, Garcia filed a motion for a
new trial in the district court. The court found that
a motion for a new trial was not the correct vehicle
for requesting relief under N.D.C.C. § 12.1-32-13.1,
but pursuant to the consent of both parties, agreed
to consider whether N.D.C.C. § 12.1-32-13.1 applied
to Garcia. After a hearing, the court issued an order
denying the motion for a new trial and finding
N.D.C.C. § 12.1-32-13.1 does not apply to Garcia. On
appeal, Garcia argues the court erred in finding
N.D.C.C. § 12.1-32-13.1 is not applicable to him.

5a
II.
[¶6]

Garcia initially framed this matter as a

motion for post-conviction relief asserting the
enactment of N.D.C.C. § 12.1-32-13.1 was newly
discovered evidence. “We review post-conviction
relief

applications

based

on

newly

discovered

evidence as a motion for a new trial based on newly
discovered

evidence

under

N.D.R.Crim.P.

33.”

Kovalevich v. State, 2018 ND 184, ¶ 5, 915 N.W.2d
644. To prevail on a motion for a new trial on the
basis

of

newly

discovered

evidence

under

N.D.R.Crim.P. 33, the defendant must show: (1) the
evidence was discovered after trial, (2) the failure to
learn about the evidence at the time of trial was not
the result of the defendant’s lack of diligence, (3) the
newly discovered evidence is material to the issues
at trial, and (4) the weight and quality of the newly
discovered evidence would likely result in an
acquittal. Id. (citations omitted). A district court’s
ruling on a motion for new trial is subject to the
abuse of discretion standard of review.

Id.

The

enactment of N.D.C.C. § 12.1-32-13.1 cannot be
considered as material to issues at trial or likely to
result in acquittal. A motion for a new trial was

6a
improper, the district court did not abuse its
discretion in denying the motion, and we affirm the
district court’s denial of the motion.
[¶7]

Generally, requests for a court order must be

made by motion. The motion must be in writing,
unless made during a hearing or trial. N.D.R.Civ.P.
7(b)(1)(A). However, courts have discretion to hear
improper motions.

See Matter of Adoption of

J.S.P.L., 532 N.W.2d 653, 657 (N.D. 1995).
[¶8]

Here, while the matter was framed as a

motion for a new trial, both parties had briefed and
prepared for a hearing to determine whether Garcia
could seek relief from his sentence through N.D.C.C.
§ 12.1-32-13.1. The district court inquired with both
parties if they were in agreement that the court
could address the applicability of N.D.C.C. § 12.132-13.1.

Both parties indicated their consent to

have the court proceed with a determination of
whether N.D.C.C. § 12.1-32-13.1 could be applied in
Garcia’s case. In turn, this Court will treat Garcia’s
appeal as an appeal of the district court’s denial of a
motion for reduction of his sentence under N.D.C.C.
§ 12.1-32-13.1.

7a
III.
[¶9]

Garcia argues the district court erred in

determining he could not seek relief from his
sentence pursuant to N.D.C.C. § 12.1-32-13.1.
Garcia contends the statute can be applied in a
prospective manner because the triggering event
(twenty years of custody) can occur subsequent to
the enactment of the statute, that a plain reading of
the statute supports retroactive application, or that
the statute is ambiguous and the legislative history
supports retroactive application.
[¶10] A statute that lessens the punishment for a
criminal act cannot be applied to a sentence if the
statute becomes effective after a conviction is final.

State v. Cummings, 386 N.W.2d 468, 472, n.2 (N.D.
1986). “A statute is employed retroactively when it
is applied to a cause of action that arose prior to the
effective date of the statute.”

Id. at 471 (citing

Reiling v. Bhattacharyya, 276 N.W.2d 237, 239
(N.D. 1979); State v. Iverson, 2006 ND 193, ¶ 6, 721
N.W.2d 396). When an individual is convicted and
that conviction is affirmed on appeal, the conviction
is considered final. Iverson, at ¶ 8.

8a
[¶11] “Legislation lessening punishment may not be
applied to final convictions because this would
constitute an invalid exercise by the Legislature of
the executive pardoning power.” Cummings, 386
N.W.2d at 472, n.2 (citing Ex parte Chambers, 69
N.D. 309, 285 N.W. 862, 865 (1939)). Statutes that
reduce final sentences infringe on the executive’s
pardoning power. Iverson, 2006 ND 193, ¶ 9, 721
N.W.2d 396.
[¶12] Garcia’s original conviction was affirmed on
appeal in 1997. Garcia, 1997 ND 60, 561 N.W.2d
599. The effective date of N.D.C.C. § 12.1-32-13.1
was August 1, 2017.

Because Garcia’s conviction

was final before the statute’s effective date, granting
his requested relief would require retroactive
application of the statute and would constitute an
infringement on the executive pardoning power. See

Cummings, 386 N.W.2d at 472, n.2.
[¶13] We conclude Garcia’s argument that the
legislature’s inclusion of a future triggering event
results in prospective application of the statute, not
retroactive application of the statute, must fail.
Allowing modification of a final sentence by
including within the statute a delay, would allow

9a
unfettered infringement on the executive pardoning
power.

Any final sentence could be modified

through legislative action simply by including
within the statute a triggering event.

A statute

enacted after a final sentence, even one with a
delayed

application,

requires

a

retroactive

application to modify the final sentence and is an
infringement on the executive pardoning power.
IV.
[¶14] Garcia failed to provide newly discovered
evidence to support his motion for a new trial.
Additionally, any application of N.D.C.C. § 12.1-3213.1 to Garcia’s sentence would require retroactive
application and be an infringement on the executive
pardoning power. We affirm the order of the district
court.
[¶15] Jon J. Jensen
Jerod E. Tufte
Daniel J. Crothers
Lisa Fair McEvers
Gerald W. VandeWalle, C.J.
Tufte, Justice, concurring specially.
[¶16] The Governor alone has the power to “grant
reprieves, commutations, and pardons.” N.D. Const.
art. V, § 7; State v. Iverson, 2006 ND 193, ¶ 7, 721

10a
N.W.2d 396. As the Majority explains, when the
Governor is presented with a bill that reduces
punishment for a criminal offense, our longestablished precedent confirms that the bill may
apply only to those whose criminal convictions are
not yet final. If the Governor intends to give new
legislation retroactive effect to final convictions, the
Governor must not only sign the bill into law
pursuant to article V, section 9, but also exercise the
commutation power under section 7 to grant
clemency to those whose convictions are final. For
those, like Garcia, whose convictions were final
before a potentially applicable statute lessening
punishment became effective, the Constitution
limits the available relief to the Governor’s power to
grant executive clemency.

Our recent decisions

affirming these principles do not foreclose relief to
those whose convictions are final; they merely
require the request be made to the state official who
holds the sole power to grant such relief. Odom v.

State, 2018 ND 163, 913 N.W.2d 775; Beeter v.
State, 2018 ND 129, 911 N.W.2d 886; State v. Cook,
2018 ND 100, 910 N.W.2d 179; State v. Myers, 2017

11a
ND 265, 903 N.W.2d 520; State v. Iverson, 2006 ND
193, 721 N.W.2d 396.
[¶17] Jerod E. Tufte
Gerald W. VandeWalle, C.J.

12a

APPENDIX B
_________________________
SUPREME COURT OF NORTH DAKOTA
May 16, 2019
RE:

Petition for Rehearing - Garcia v.
State, Supreme Court No. 20180316S

The Supreme Court entered an order today denying
the petition for rehearing in this matter.
Pursuant to Rule 41(a), N.D.R.App.P., the mandate
of the Supreme Court will be forwarded to the clerk
of the trial court after the expiration of seven days.
Sincerely yours,
/s/ Sheree Locken
Deputy Clerk
North Dakota Supreme Court
P.S. This appeal will continue to proceed until final
disposition and mandate under the North Dakota
Rules of Appellate Procedure that were in effect
when the notice of appeal was filed in this matter.
The amendments that are effective March 1, 2019,
will not apply.

13a
APPENDIX C
_________________________
STATE OF NORTH DAKOTA
IN DISTRICT COURT COUNTY OF CASS EAST
CENTRAL JUDICIAL DISTRICT
Barry C. Garcia
Petitioner,
vs.
State of North Dakota
Respondent.
No. 09-2016-CV-00309
June 29, 2018
______________________________
ORDER
[¶1] On June 29, 2018, the above-entitled matter
came on for a hearing on Petitioner Barry C.
Garcia’s Motion for New Trial, dated February
19,2018, the Honorable Wade L. Webb presiding.
Attorney Samuel Gereszek appeared for Petitioner.
Mr. Garcia was not present. Cass County State’s
Attorney Birch P. Burdick appeared for Respondent
State of North Dakota.

14a
[¶2] The Court reviewed the documents filed by
Petitioner and Respondent, heard the arguments of
counsel, reviewed the related files and records and
was otherwise fully advised.
[¶3] For all the reasons stated on the record, it is
hereby ORDERED:
A. Petitioner’s Motion for New Trial, it is hereby
DENIED.
B. In Garcia v. State, 2017 ND 263, ¶32, 903
N.W.2d 503, the North Dakota Supreme
Court left to this court the determination of
whether Petitioner comes within the scope of
N.D.C.C. §12.1-32-13.1. Having considered
the matter, this court’s determination is NO.
Hon. Wade L. Webb
District Court Judge

15a
APPENDIX D
This opinion is subject to petition for
rehearing Filed 11/16/17 by Clerk of
Supreme Court
IN THE SUPREME COURT
STATE OF NORTH DAKOTA
_________________________
2017 ND 263
Barry C. Garcia,

Petitioner and Appellant

v.
State of North Dakota,
Respondent and Appellee
_________________________
No. 20170030
_________________________
Appeal from the District Court of Cass County, East
Central Judicial District, the Honorable Wade L.
Webb, Judge.

16a
AFFIRMED
Opinion of the Court by Tufte, Justice
Samuel A. Gereszek (on brief), East Grand Forks,
Minnesota, and John R. Mills (argued), San
Francisco, California, for petitioner and appellant.
Birch P. Burdick, State’s Attorney, Fargo, North
Dakota, for respondent and appellee.
Garcia v. State
No. 20170030
Tufte, Justice.
[¶1]

Barry Garcia appeals from a district court

order summarily dismissing his application for postconviction relief.

He argues his sentence of life

imprisonment without the possibility of parole was
imposed in violation of the Eighth Amendment and
this Court should eliminate his parole restriction or
remand for resentencing. We affirm.
I.
[¶2]

On the evening of November 15, 1995,

sixteen-year-old Barry Garcia drove around FargoMoorhead with three teenage members of the
Skyline Piru Bloods street gang. The teens carried
with them a sawed-off shotgun owned by the gang
and 10 to 15 shotgun shells.

While driving in a

17a
West Fargo residential area around 10 p.m., Garcia
asked the driver to stop, after which he and another
young man exited the vehicle.

Garcia took the

shotgun in hand and the two began walking around
the neighborhood.
[¶3]

Nearby, Pat and Cherryl Tendeland were

dropping off their friend, Connie Guler, at her home.
Guler saw the two teens walking down the sidewalk
toward the Tendeland car. Guler thought she saw
the shorter of the two, later identified as Garcia,
carrying a gun, but Pat Tendeland thought it was an
umbrella.

The two teens stood near Guler’s

driveway for awhile and then began walking back
toward the Ford sedan.

Thinking this was

suspicious behavior, Pat Tendeland drove slowly
away from Guler’s driveway toward the Ford sedan.
Garcia lagged behind the other teen, who walked
briskly toward the Ford sedan. As the Ford started
to pull away, Guler turned and saw Garcia standing
next to the front passenger window of the Tendeland
car.

Garcia raised the shotgun and shot Cherryl

Tendeland in the forehead.

Shotgun pellets also

struck Pat Tendeland’s face. Pat Tendeland drove
toward a nearby police station while Guler, a nurse,

18a
tended to Cherryl’s wounds.

Upon realizing the

severity of Cherryl’s wounds, they stopped and
called 911 for emergency assistance. An ambulance
arrived and took the Tendelands to the hospital.
Cherryl Tendeland was pronounced dead at the
emergency room.
[¶4]

Police officers determined the address of the

Ford sedan’s registered owner from a description of
the sedan and its license plate number. The officers
then located the car when it turned into the owner’s
driveway at 11:45 p.m. Garcia alone refused police
orders to either remain in the car or lie on the
ground. He fled on foot. Police recovered a sawedoff shotgun from the sedan’s backseat along with
several shotgun shells.

Police chased Garcia and

arrested him at a nearby athletic field. He had four
shotgun shells in his possession. A juvenile petition
was filed alleging Garcia had committed murder,
attempted

robbery,

aggravated

assault,

and

criminal street gang crime. At the State’s request,
the court transferred Garcia to adult court for trial.
[¶5]

At trial, the district court dismissed the

robbery and criminal street gang charges. The jury
found Garcia guilty of murder, a class AA felony,

19a
and aggravated assault, a class C felony. After a
sentencing hearing, the district court sentenced
Garcia to life imprisonment without parole on the
murder conviction, and to a concurrent five years’
imprisonment on the aggravated assault conviction.
[¶6]

Garcia

appealed,

arguing

his

sentence

constituted cruel and unusual punishment under
the Eighth Amendment to the United States
Constitution.

This Court affirmed his conviction

and sentence. State v. Garcia, 1997 ND 60, ¶ 60,
561 N.W.2d 599, cert. denied, 522 U.S. 874 (1997).
[¶7]

In 1998, Garcia applied for post-conviction

relief. The district court denied his application, and
Garcia appealed. While his appeal was pending, he
filed a second application for post-conviction relief,
and the district court denied the application. Garcia
appealed, and the two appeals were consolidated.
This Court affirmed the district court’s decisions.

Garcia v. State, 2004 ND 81, 678 N.W.2d 568.
[¶8]

In 2004, Garcia petitioned for a writ of

habeas corpus in federal district court, raising many
of the same issues he raised in his prior state cases,
including that his sentence amounts to cruel and
unusual punishment under the Eighth Amendment

20a
and that his counsel was ineffective because he
failed to present mitigating information during
sentencing.

Garcia v. Bertsch, 2005 WL 4717675

(D. N.D. Sept. 12, 2005). The federal district court
denied his petition.

Garcia appealed, and the

Eighth Circuit Court of Appeals affirmed the federal
district court’s decision. Garcia v. Bertsch, 470 F.3d
748 (8th Cir. 2006), cert. denied, 551 U.S. 1116
(2007).
[¶9]

In 2013, Garcia petitioned for a writ of

habeas corpus in federal district court, arguing his
sentence constitutes cruel and unusual punishment
because he was a juvenile at the time of the offense,
citing Miller v. Alabama, 597 U.S. 460 (2012). The
federal district court concluded it lacked subject
matter jurisdiction over Garcia’s second petition and
dismissed the petition without prejudice. Garcia v.

Bertsch, 2013 WL 1533533 (D. N.D. Apr. 12, 2013).
[¶10]

In 2016, Garcia applied for post-conviction

relief, arguing his sentence constitutes cruel and
unusual punishment and violates the North Dakota
and United States Constitutions. After an attorney
was appointed to represent Garcia, his application
was

supplemented,

arguing

his

sentence

is

21a
unconstitutional as a result of recent United States
Supreme Court decisions causing a significant
change in substantive and procedural law.
[¶11]

The State moved to dismiss or for summary

disposition.

After a hearing, the district court

denied the State’s motion to dismiss, granted the
State’s motion for summary disposition, and denied
Garcia’s application for post-conviction relief.
II.
[¶12]

An application for post-conviction relief may

be summarily dismissed if there are no genuine
issues of material fact and the moving party is
entitled to judgment as a matter of law. Leavitt v.

State, 2017 ND 173, ¶ 4, 898 N.W.2d 435.

We

review an appeal of a summary denial of postconviction relief as we would review an appeal from
summary judgment. Id. “The party opposing the
motion is entitled to all reasonable inferences at the
preliminary stages of a post-conviction proceeding
and is entitled to an evidentiary hearing if a
reasonable inference raises a genuine issue of
material fact.” Id. (quoting Lindsey v. State, 2014
ND 174, ¶ 7, 852 N.W.2d 383).

22a
[¶13]

Garcia argues the district court erred in

summarily dismissing his application for postconviction relief, because his sentence of life
imprisonment without parole was imposed in
violation of the Eighth Amendment to the United
States Constitution. He contends the district court
inflicted

cruel

sentencing

him

and

unusual

without

punishment

an

by

individualized

consideration of the distinct attributes of his youth
and giving mitigating effect to his youth before he
was sentenced to life without parole.
[¶14]

The issue raised by Garcia is not a facial

challenge to the statutes authorizing the sentence
he received. Rather, he argues his sentence violates
the Eighth Amendment as a result of inadequate
consideration by the sentencing court at the
sentencing hearing regarding whether Garcia’s
murder conviction reflected transient immaturity or
irreparable

corruption.

See

Nicholas

Quinn

Rosenkranz, The Subjects of the Constitution, 62
Stan. L. Rev. 1209, 1224 (2010) (“A violation of the
Constitution is an event. There is a moment before
the constitutional violation.
after the violation.”).

There is a moment

If the district court at

23a
sentencing in 1996 gave adequate consideration to
these factors, the sentence was constitutional when
imposed and remains constitutional today. If these
factors were not adequately considered, Garcia
argues he must have a new sentencing hearing or
we must strike the restriction on parole eligibility
from his sentence.
[¶15]

The Eighth Amendment to the United

States Constitution states: “Excessive bail shall not
be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.”

The Eighth

Amendment applies to the states through the

Roper v. Simmons, 543

Fourteenth Amendment.

U.S. 551, 560 (2005). The U.S. Supreme Court has
explained that “proportionality is central to the
Eighth

Amendment”

and

the

amendment’s

protections include “the right not to be subjected to
excessive sanctions.”
(citations omitted).

Miller, 567 U.S. at 469
The proportionality of a

sentence is measured with reference to both the
offense and the offender.

Id.

The prohibition

against cruel and unusual punishment applies to
both capital and non-capital cases. Garcia, 1997 ND
60, ¶ 47, 561 N.W.2d 599.

24a
[¶16]
his

Garcia previously argued to this Court that
sentence

constituted

cruel

and

unusual

punishment, and we rejected his argument. Garcia,
1997 ND 60, ¶ 46, 561 N.W.2d 599. However, since
that decision, the United States Supreme Court has
decided several cases related to sentencing juvenile
offenders

and

has

said

that

juveniles

are

constitutionally different from adults such that
certain punishments are disproportionate when
applied to most juveniles.
[¶17]

In Roper, the Supreme Court held the

imposition of the death penalty on offenders who
were under the age of eighteen when their crimes
were committed constitutes cruel and unusual
punishment and is prohibited by the Eighth
Amendment.

543

U.S.

at

574-75

(overruling

Stanford v. Kentucky, 492 U.S. 361 (1989)).

The

Court stated juvenile offenders are different from
adults and their culpability is diminished because
they lack maturity and have an underdeveloped
sense of responsibility often resulting in impetuous
and ill-considered actions and decisions, they are
more susceptible to negative influences and outside
pressures, their character is not as well-formed, and

25a
their personality traits are more transitory and less
fixed. Id. at 569-71.

The Court also stated the

penological justifications for the death penalty apply
to juveniles with less force than to adults because of
their diminished capacity. Id. at 571.
[¶18]

In Graham v. Florida, 560 U.S. 48, 82

(2010),

the

Supreme

Court

held

the

Eighth

Amendment prohibits imposition of a sentence of life
without parole on a juvenile offender for a nonhomicide crime.
offenders’

The Court considered juvenile

limited

culpability,

the

penological

justifications, and the severity of the sentence and
concluded a sentence of life without parole for a
juvenile offender who did not commit homicide is
cruel

and

unusual

and

violates

the

Eighth

Amendment. Id. at 69-74.
[¶19]

Roper

and

Graham

established

that

children are constitutionally different from adults
for purposes of Eighth Amendment challenges to
disproportionate sentencing. Miller, 567 U.S. at 471.
In Miller, at 465, the Supreme Court extended the
rationale

of

Roper

and

Graham

to

declare

unconstitutional all mandatory sentences of life
imprisonment without parole for juveniles convicted

26a
of homicide. The Court reasserted that juveniles are
less deserving of the most severe punishments
because they have diminished culpability and
greater prospects for reform, and that the distinctive
attributes

of

youth

diminish

the

penological

justifications for imposing the harshest sentences on
juvenile offenders. Id. at 471-72. The Court said
the characteristics of youth matter in determining
the appropriateness of a life without parole sentence
and a mandatory sentencing scheme takes from the
sentencer

the

opportunity

to

consider

the

“mitigating qualities of youth.” Id. at 473-76. The
Court noted youth is a time of immaturity,
irresponsibility, impetuousness, and recklessness;
youth may also be more susceptible to influence and
to psychological damage; and these “signature
qualities” of youth are all “transient.”

Id. at 476

(quoting Johnson v. Texas, 509 U.S. 350, 368
(1993)).

The Court held the Eighth Amendment

forbids mandatory sentences of life in prison
without the possibility of parole for juvenile
offenders, explaining:
[G]iven all we have said in Roper, Graham,
and this decision about children’s diminished
culpability and heightened capacity for

27a
change, we think appropriate occasions for
sentencing juveniles to this harshest possible
penalty will be uncommon. That is especially
so because of the great difficulty we noted in
Roper and Graham of distinguishing at this
early age between “the juvenile offender
whose crime reflects unfortunate yet
transient immaturity, and the rare juvenile
offender whose crime reflects irreparable
corruption.” Although we do not foreclose a
sentencer’s ability to make that judgment in
homicide cases, we require it to take into
account how children are different, and how
those differences counsel against irrevocably
sentencing them to a lifetime in prison.

Id. at 479-80 (citations omitted). The Court further
explained its decision did not categorically bar the
penalty of life in prison without the possibility of
parole, but it mandates that a sentencer consider a
juvenile

offender’s

youth

and

attendant

characteristics before imposing the sentence. Id. at
483.
[¶20]

In Montgomery v. Louisiana, 136 S. Ct. 718,

736 (2016), the Supreme Court held its decision in

Miller announced a new substantive constitutional
rule that applies retroactively to juvenile offenders
whose convictions and sentences were final when

Miller was decided. The Court reasserted:

28a

Miller requires that before sentencing a
juvenile to life without parole, the sentencing
judge take into account “how children are
different, and how those differences counsel
against irrevocably sentencing them to a
lifetime in prison.” The Court recognized that
a sentencer might encounter the rare juvenile
offender who exhibits such irretrievable
depravity that rehabilitation is impossible
and life without parole is justified. But in
light of “children’s diminished culpability and
heightened capacity for change,” Miller made
clear that “appropriate occasions for
sentencing juveniles to this harshest possible
penalty will be uncommon.”
Miller, then, did more than require a
sentencer to consider a juvenile offender’s
youth before imposing life without parole; it
established that the penological justifications
for life without parole collapse in light of “the
distinctive attributes of youth.” Even if a
court considers a child’s age before sentencing
him or her to a lifetime in prison, that
sentence still violates the Eighth Amendment
for a child whose crime reflects “‘unfortunate
yet transient immaturity.’” Because Miller
determined that sentencing a child to life
without parole is excessive for all but “‘the
rare juvenile offender whose crime reflects
irreparable corruption,’” it rendered life
without parole an unconstitutional penalty
for “a class of defendants because of their
status”—that is, juvenile offenders whose

29a
crimes reflect the transient immaturity of
youth.

Id. at 733-34 (citations omitted). “Miller requires a
sentencer to consider a juvenile offender’s youth and
attendant characteristics before determining that
life without parole is a proportionate sentence.” Id.
at 734.

The Court held that Miller applies

retroactively and that prisoners who received a
mandatory sentence of life in prison without the
possibility of parole for an offense committed when
they were juveniles must be given the opportunity to
show

their

crime

did

not

reflect

irreparable

corruption. Id. at 736.
[¶21]

When the U.S. Supreme Court determines

that one of its decisions applies “retroactively,” it
suggests that the rule announced in the decision did
not exist prior to that decision and yet will be given
application to judgments made final before the
decision issued.
264, 271 (2008).

Danforth v. Minnesota, 552 U.S.
That “is incorrect.”

Id.

By

declaring Miller to be retroactive, Montgomery
means that because the source of the Miller rule “is
the Constitution itself,” it “necessarily pre-exists our
articulation

of

the

new

rule.”

Id.

Thus,

30a

Montgomery states that the Eighth Amendment
always required a sentencing court to consider
youth, and what the Supreme Court articulates in
2015 is simply a clearer formulation of the
requirements

that

the

Eighth

Amendment

demanded of sentencing courts in 1996.
[¶22]

The

holding

of

Miller

is

limited

to

mandatory sentences of life in prison without the
possibility of parole, and its central rationale rests
on the mandatory nature of the sentence prohibiting
the sentencing court from considering the mitigating
attributes of youth. The Court’s broader rationale
applies to all cases where juvenile offenders are
sentenced to life without the possibility of parole:
“Graham’s reasoning implicates any life-withoutparole sentence imposed on a juvenile, even as its
categorical
offenses.”

bar

relates

only

to

Miller, 567 U.S. at 473.

elaborated in Montgomery:

nonhomicide
The Court

“Even if a court

considers a child’s age before sentencing him or her
to a lifetime in prison, that sentence still violates
the Eighth Amendment for a child whose crime
reflects ‘unfortunate yet transient immaturity.’”

Montgomery, 136 S. Ct. at 734 (quoting Miller, 567

31a
U.S. at 479).

The Court further stated, “Miller’s

conclusion that the sentence of life without parole is
disproportionate for the vast majority of juvenile
offenders raises a grave risk that many are being
held in violation of the Constitution.” Montgomery,
at 736. Although the holding in Montgomery applies
only to mandatory sentences, we understand the
touchstone for Eighth Amendment proportionality
analysis is that consideration of whether a juvenile’s
crimes reflect “transient immaturity” rather than
“irreparable corruption” is required even when a
sentence of life without parole is imposed as a
matter of the sentencing court’s discretion.
[¶23]

Garcia was sentenced to life in prison

without parole after an individualized sentencing
hearing. However, he was sentenced before Miller
and Montgomery were decided, and the district
court lacked the specific articulation that it was to
distinguish between those whose crimes reflect
“permanent

incorrigibility”

or

“irreparable

corruption” as opposed to “transient immaturity.”
We read these not as magic words without which a
sentence cannot pass muster under the Eighth
Amendment, but, instead, we review the district

32a
court’s sentencing hearing to determine whether it
met the substantive requirements of Miller and

Montgomery in its consideration of youth and its
attendant circumstances. Without that substantive
compliance, Garcia’s sentence of life imprisonment
without parole would have been imposed in violation
of the Eighth Amendment.
[¶24]

At the sentencing hearing, both the State

and Garcia’s attorney made arguments supporting
their recommended sentences. The State described
Garcia’s “unstable, chaotic” family history, his
father’s imprisonment, his mother’s murder, and his
choice to commit numerous crimes. The State also
noted that an evaluation by the North Dakota State
Hospital

determined

Garcia

was

“minimally

amenable” to rehabilitation and that Garcia had not
shown any responsibility or remorse. Garcia did not
testify or make a personal statement during the
sentencing hearing. His attorney did argue that the
court should consider Garcia’s age.

Garcia’s

attorney argued the court should remember Garcia
was young, young people exercise extremely poor
judgment and do not think before things happen,
and a doctor at the State Hospital said he was

33a
“minimally amenable” to treatment but did not say
he was not amenable to treatment.

Garcia’s

attorney argued young people do not have any
insight and may be written off as being total
failures, but a lot of those people straighten
themselves out.

Garcia’s attorney did not offer

witnesses or other evidence, but he argued that
Garcia’s family was supportive and were willing to
testify that Garcia had been great with his younger
brothers, he took care of them, and he had assumed
the responsibility of a parent in certain situations.
He requested the court not “write off” Garcia but
give

him

an

opportunity

to

change.

He

recommended the court sentence Garcia to thirty
years in prison or, alternatively, to life with the
opportunity for parole to give Garcia an incentive to
complete any programs available to him and to
allow the parole board an opportunity to look at
what he has done while in prison.
[¶25]

The

district

court

said

it

considered

information from various documents, including the
presentence investigation, the information, police
reports, Garcia’s statement shortly after his arrest,
a report from the State Hospital, and victim impact

34a
statements. The court made specific findings about
the statutory sentencing factors under N.D.C.C. §
12.1-32-04 and explained its decision to sentence
Garcia to life in prison without the possibility of
parole, stating:

The
defendant
acted
under
strong
provocation. Best evidence at this point
indicates that Mr. Garcia fired a shotgun at
point-blank range at Mrs. Tendeland because
she looked at him the wrong way. That is not
provocation. In fact, it’s the most senseless
explanation for a murder I have ever heard of.
That favors the State’s position.
There are substantial grounds present which
tend to excuse or justify the defendant’s
conduct. The only argument that seems to
have been offered to excuse or explain this
conduct has been youth and/or drug use.
There is simply no basis for believing that the
drug use on the night in question was the
cause of the defendant’s conduct. In fact,
juveniles . . . the defendant’s juvenile history
would indicate that he has a serious history of
serious assaults and that his problems are
most likely the result of an unresolved anger
problem, and that he possesses some sort of
an explosive personality.
His record would indicate that he’s the type of
individual who is likely to blow at any point.
There does not seem to be any justification for

35a
the conduct in this case.
State’s position.
....

That favors the

The defendant’s history of previous offenses
and/or lapse of time since any previous
offenses. In reviewing the juvenile history of
the defendant, it appears that there are 16
convictions in the past—well, in a period of
time from June of 1993 through September of
1995. A number of the offenses would have
been felonies had they been committed by an
adult.
Included in those 16 priors are five assaults
or terroristic convictions. The defendant has
shown a criminal pattern of increasing
violence and consistent violence. That favors
the State’s position.

Eight, the defendant’s conduct was the result
of circumstances unlikely to recur. The crime
in this case remains unexplained to such a
degree that the best evidence before the Court
is simply that Mr. Garcia acted on an
impulse, that that impulse was the result of
being looked at the wrong way. This is
certainly a set of circumstances that could
recur at any point.
As I have indicated earlier, the best evidence
is that the defendant has an explosive
personality. I think that the best evidence
would suggest that this could recur. This
favor’s [sic] the State’s position.

36a

The defendant’s unlikely to commit another
crime. The defendant’s prior history indicates
that he’s a one-person judicial wrecking crew.
He’s committed any number of crimes. And I
think that there’s no reason to believe that
he’ll refrain from committing crimes in the
future.
The
defendant’s
likely
to
respond
affirmatively to probation. He’s been involved
in the probation system for years and has
failed to respond to treatment. It favors the
State’s position.
....
The fifteenth factor is other factors. There
are a couple of other factors that the Court
deems to be significant. The first is Mr.
Garcia’s youth. All human beings possess
certain inalienable attributes. And one of
these is the possibility of redemption or
rehabilitation. It is possible for a person to
undergo, as a result of a life-changing
circumstance, youth, spiritual, and personal
change. These types of changes are more
likely to occur in young people than they are
in older people because, in young people, their
personalities are still in formation.
However, in order for this to be accomplished,
the person must be willing to admit the
wrongfulness
of
their
conduct,
their
powerlessness to change what has already
happened, and to express a real willingness to
make amends to the fullest extent possible.

37a
In this case, Mr. Garcia has not demonstrated
that he understands the seriousness of his
crime or that he has changed as a result of his
experiences.
I came to this case with a personal
philosophy. I think that it’s safe to say that
every judge, when they take the bench, comes
to every case with a personal philosophy. My
personal philosophy is that young people are
never beyond redemption.
My personal philosophy is that particularly
young people are capable of changing, they
are capable of reforming their lives, that they
are capable of starting anew.
I came to this case, looking for some
reason, some justification, some excuse, to
hand down a sentence less than the
maximum. Mr. Garcia has given me no
alternative, he has given me no opportunity.
....
If I had heard anything from you that
indicated to me that you had started this path
of change, that you had started the process of
change, I might have viewed your lawyer’s
pleas far more sympathetically. You haven’t
given me any reason to believe that you’ve—
that you’re in a position to change.

Miller held a sentence of life without parole

[¶26]
for

a

child

whose

crime

reflects

transient

immaturity is a disproportionate punishment and
therefore unconstitutional. Montgomery, 136 S. Ct.
at 735.

Miller, 567 U.S. at 480, requires the

38a
sentencer to take into account how children are
different from adults, and how those differences
counsel against irrevocably sentencing a child to a
lifetime in prison. Miller did not impose a formal
factfinding requirement, and the sentencer is not
required

to

use

the

“irreparable corruption.”

words

“incorrigible”

or

Montgomery, at 735.

Miller “mandates only that a sentencer follow a
certain process—considering an offender’s youth and
attendant

characteristics—before

imposing

a

particular penalty.” Miller, at 483.
[¶27]

The district court considered Garcia’s age,

the circumstances of the offense, and his prior
criminal history, and recognized that young people
are more capable of rehabilitation.

The court

considered how children are different and said
young people are never beyond redemption and are
capable of changing and reforming their lives, but
Garcia did not do anything to indicate he can
change. The court considered the circumstances of
the crime and the lack of any justification for
Garcia’s conduct.

The court considered Garcia’s

criminal history, which showed a pattern of
increasing and consistent violence, and his history

39a
of violating probation.

The court considered

Garcia’s youth and attendant circumstances and
determined Garcia deserved a sentence of life
without parole, despite his youth. Garcia is the only
person in North Dakota serving a life without parole
sentence for a crime committed when he was a
minor.

Without using the precise words the

Supreme Court used in Miller, the court found
Garcia to be the rare juvenile offender whose crime
reflected irreparable corruption and not transient
immaturity. See Johnson v. State, 395 P.3d 1246,
1258-59 (Idaho 2017) (rejecting Miller claim where
sentencing court “clearly considered Johnson’s youth
and all its attendant characteristics”).
[¶28]

Garcia argues that even if the sentencing

court gave consideration to youth, the significance of
that factor has changed to such a degree that a new
sentencing hearing is required.

As authority, he

cites Bobby v. Bies, 556 U.S. 825 (2009). In Bies,
the Supreme Court considered the change in legal
circumstances resulting from Atkins v. Virginia, 536
U.S. 304 (2002).

Prior to Atkins, intellectual

disability was a mitigating factor in considering
eligibility for the death penalty.

After Atkins, a

40a
determination

of

intellectual

disability

barred

imposition of the death penalty. Bies stands for the
proposition that the significant shift in importance
from intellectual disability as one factor among
several

to

one

having

conclusive

importance

required further proceedings. The change in legal
significance of youth resulting from Montgomery is
superficially similar to but distinguishable from the
change at issue in Bies.

Bies explained that the

prosecution may have little incentive to challenge
mitigating evidence of intellectual disability because
that same evidence may support the aggravating
factor of future dangerousness.

Bies, at 836-37.

Atkins thus completely changed the incentives.
Here, Montgomery does not change the incentive of
either the prosecution or Garcia in highlighting
youthful prospects for rehabilitation. Youth was the
central thrust of Garcia’s plea for mercy.

The

State’s central argument was that, despite his
youth, Garcia had demonstrated a pattern of
increasingly violent and senseless offenses and had
demonstrated

nothing

to

question

the

state

hospital’s assessment that he was “minimally
amenable” to rehabilitation.

41a
[¶29]

Garcia’s

sentencing

fulfilled

the

requirements from Miller and Montgomery. His
sentence is proportionate to the offender and the
offense

and

does

not

violate

the

Eighth

Amendment’s prohibition of cruel and unusual
punishment. We conclude the district court did not
err in summarily dismissing Garcia’s application for
post-conviction relief.
III.
[¶30] Garcia argues his case should be remanded to
the district court to provide him with an opportunity
to request a reduction in the length of his sentence
under N.D.C.C. § 12.1-32-13.1.

He contends the

statute allows juvenile offenders to seek a sentence
reduction after they have served twenty years and
he is potentially eligible for relief under the new
law. The State argues the statute does not allow
Garcia to move for a reduction in sentence, because
it does not apply retroactively.
[¶31]

In 2017, the legislature enacted N.D.C.C. §

12.1-32-13.1, and the statute became effective on
August 1, 2017. Section 12.1-32-13.1(1), N.D.C.C.,
allows defendants who were convicted of an offense

42a
committed before they were eighteen years old to
request a reduction in their sentence, stating:
Notwithstanding any other provision of law, a
court may reduce a term of imprisonment
imposed upon a defendant convicted as an
adult for an offense committed and completed
before the defendant was eighteen years of
age if:
a.
The defendant has served at least
twenty years in custody for the offense;
b.
The defendant filed a motion for
reduction in sentence; and
c.
The court has considered the factors
provided in this section and determined the
defendant is not a danger to the safety of any
other individual, and the interests of justice
warrant a sentence modification.
The statute requires the court to consider various
factors in deciding whether to reduce a term of
imprisonment, including the age of the defendant at
the time of the offense, whether the defendant has
demonstrated maturity and rehabilitation, the
defendant’s family and community circumstances at
the time of the offense, and juveniles’ diminished
culpability and failure to appreciate risks and
consequences. N.D.C.C. § 12.1-32-13.1(3).

43a
[¶32]

Because section 12.1-32-13.1 became law

after Garcia’s petition for post-conviction relief,
Garcia could not and did not move for a reduction in
his sentence under this statute before the district
court. Issues that were not raised before the district
court will not be considered for the first time on
appeal. Linstrom v. Normile, 2017 ND 194, ¶ 19,
899 N.W.2d 287. Although the parties have fully
briefed to us the issue of whether this new statute
applies retroactively to Garcia’s final conviction, we
leave for the district court to determine in the first
instance whether Garcia comes within its scope. See

State v. Iverson, 2006 ND 193, ¶¶ 6-8, 721 N.W.2d
396 (explaining application of ameliorative penal
legislation

exception

to

general

rule

against

retroactivity).
IV.
[¶33]

We

conclude

the

district

court’s

1996

sentencing of Garcia to life imprisonment without
parole did not violate the Eighth Amendment. We
affirm

the

district

court’s

order

summarily

dismissing Garcia’s application for post-conviction
relief.
[¶34]

Jerod E. Tufte

44a
Daniel J. Crothers
Lisa Fair McEvers
Jon J. Jensen
Gerald W. VandeWalle, C.J.

45a

APPENDIX E
_________________________
STATE OF NORTH DAKOTA IN DISTRICT
COURT
COUNTY OF CASS EAST CENTRAL JUDICIAL
DISTRICT
------------------------------------------------------------------------Barry C. Garcia
Plaintiff,
vs.
State of North Dakota,
Defendant.
------------------------------------------------------------------------CASE NO: 09-2016-CV-00309
POST-CONVICTION HEARING

46a
TRANSCRIPT OF PROCEEDINGS
Taken At
Cass County Courthouse
Fargo, North Dakota
January 13, 2017
BEFORE THE HONORABLE WADE L. WEBB
DISTRICT JUDGE
APPEARANCES
SAMUEL A. GERESZEK, Attorney At Law
HAMMARBACK & SCHEVING, PLC 308
DeMers Avenue
East Grand Forks, MN 56721 (218) 773-6841
sam@egflawyer.com
FOR THE PLAINTIFF

BIRCH P. BURDICK, Cass County State’s
Attorney
CASS COUNTY STATE'S ATTORNEY'S
OFFICE P.O. Box 2806
Fargo, ND 58108-2806
(701) 241-5850
sa-defense-notices@casscountynd.gov

47a
FOR THE DEFENDANT

(WHEREUPON, on January 13, 2017, the following
proceedings were had, to-wit:)
***
THE COURT: All right, folks. We’ll go on
the record in regards to Cass County District Court
file number 09-2016-CV-309, Barry Garcia versus
the State of North Dakota, a post-conviction matter
originally filed February 1st of 2016.
Appearing

in

court

today,

we

have

petitioner’s counsel, Mr. Gereszek. We have Mr.
Burdick on behalf of the respondent, the State of
North Dakota.
It’s about -- well, it’s 1:43 in the afternoon
right now. The hearing was to commence at 1:30.
Counsel was present. The Court was ready to
proceed at that point in time. Previously in regards
to this file, Mr. Gereszek and Mr. Burdick, as you
folks are aware, the Court allowed for, in the civil
post-conviction proceeding, Mr. Garcia to appear
telephonically. My understanding is he’s in the
custody of the North Dakota Department of

48a
Corrections and Rehabilitation, presently, if my
understanding is correct, serving his sentence in the
Bureau of Federal Prisons in the state of Arizona.
And so the Court, trying to accommodate that,
allowed for telephonic appearance?
MR. BURDICK: No, no objection.
THE COURT: Okay. The way that works
through the Bureau of Prisons is court staff was
told, and I believe Mr. Gereszek was told as well,
counsel for Mr. Garcia, the Bureau of Prisons would
have Mr. Garcia call us. So we provided the number.
We’ve waited 14 minutes now, and Mr. Garcia has
not called, for whatever reason the Court doesn’t
know, but the Court did wait an extra 10, now 14,
minutes. So we will proceed with the arguments,
with the hearing, here today without Mr. Garcia
present.
Based upon all the filings, it’s the Court’s
understanding, clearly, that there will be no
testimony. No facts are in dispute. It’s a legal
matter that the parties wish for the Court to decide,
however complicated, but still a legal matter for the
Court to decide, is the way the Court looks at it,
anyway.

49a
So we will proceed at this point in time
without Mr. Garcia appearing telephonically, unless
you have some other information for the Court, Mr.
Gereszek. Is that okay with you and your client?
MR. GERESZEK: That’s perfectly fine, Your
Honor. For the Court’s record, I did -- I called Mr.
Garcia’s counselor here approximately five minutes
ago or so, and it went straight to voicemail, his
counselor’s voicemail. And then I spoke with Mr.
Garcia yesterday at about 11:00 a.m., and his
counselor, and they were both aware of today at 1:30
and they knew the phone number, so I’m not sure
what’s going on.
THE COURT: Okay. And you don’t have
any control other than that, correct?
MR. GERESZEK: No, Your Honor.
THE COURT: Okay. Mr. Burdick, you’re
fine proceeding at this point in time?
MR. BURDICK: Yes, Your Honor.
THE COURT: Thank you. Counsel, the
Court proposes we argue in this matter. There’s [sic]
a handful of issues before the Court at this point in
time. The original post-conviction application -- well,
first, we’ll start with the Court has reviewed the

50a
entire file, okay, including the original postconviction application, the amended pro se postconviction application, supplement by counsel after
counsel was on the case for the petitioner, Mr.
Garcia here. That’s all been reviewed, along with
attachments. The State’s reply, response, has been
reviewed, along with attachments, including the
transcript of the sentencing hearing in July of 1996.
All has been reviewed by the Court in regards to
this matter, the entire file.
There are a couple different things pending,
the post-conviction application and also the State of
North Dakota did file, in August, its motion to
dismiss and motion for summary disposition. The
way the Court would propose this -- and I’ll hear
counsels’ argument or discussion as to whether it’s a
good plan or not -- is that we take them piecemeal,
two sections, as it were. First, let’s have argument
on the State’s motion to dismiss, meaning, alleged
misuse

of

process,

res

judicata,

statute

of

limitations. We’ll hear that discussion. The Court
will likely then give you a ruling. Then we will hear
the second half, which is the motion for summary
disposition,

which,

frankly,

counsel

for

the

51a
petitioner requested, as well, thereafter, meaning
that both of you want me to summarily dispose of
this case. But I think we take up the State’s motion
to dismiss, misuse of process, res judicata, statute of
limitations first, and then, depending upon how the
Court rules, then we move on to the motions for
summary disposition by each party. Does that sound
like a good plan, for the petitioner?
MR. GERESZEK: Yes, Your Honor.
THE

COURT:

Mr.

Burdick,

for

the

respondent?
MR. BURDICK: The State is fine with that,
Your Honor. Thank you.
THE COURT: Okay. Then we will proceed
in such a manner.
The Court has reviewed the entire file, once
again, for the record. We will begin with that motion
to dismiss, issues of misuse of process, res judicata,
statute of limitations.
It’s your motion, Mr. Burdick.
MR. BURDICK: Thank you, Your Honor.
I’m not sure to what extent the Court wants to hear
this, recognizing that the Court is very familiar with
the pleadings already, but, in essence, the claim

52a
that the State made on its affirmative defense
relative to misuse of process, statute of limitations,
and res judicata are these:
That the defendant -- excuse me -- Mr.
Garcia had, over a number of years, submitted
numerous pleadings to this Court, and to other
courts, including the district court, where he argued,
essentially, that he was sentenced too harshly in
this matter; so the idea bing of his sentence being
beyond what it ought to be is something he argued
from day one. In each of those arguments he made
in the past, including his direct appeal, a prior postconviction matter, and a federal habeas corpus
matter, the courts, both the North Dakota Supreme
Court and the Eighth Circuit Court of Appeals,
looked at the entire record, looked at the arguments
of counsel at sentencing, looked at what Judge
Erickson, the sentencing judge at that time at the
district court here in Cass County did, said, and
explained on his way to a sentence of life
imprisonment without parole. I add that, to the best
of my knowledge -- and I’m not completely confident,
but fairly confident -- that was the first time that
that sentence had been imposed in this state. I

53a
think the law that allowed for sentencing without
the possibility of parole was passed in 1995, maybe,
or 1993. Somewhere in there. He imposed it in this
case, but he started out his argument -- and, again, I
won’t get at all the detail here -- that he understood
that Mr. Garcia was a juvenile and that he felt all
juveniles

were

beyond

--

were

capable

of

redemption. The point is not so much that. I realize
that’s point two of the argument here, but just as a
backdrop for the rest of our discussion. So he raised
those at this time.
Over the course of years, from 2005 with the
Roper case to 2012 where we had the Miller case
and the 2016 case which I think spurred Mr. Garcia
to file this application, the Court has gone -- the
United States Supreme Court has explained, at
some considerable depths, its thinking, again, that
juveniles are just different. Again, this mostly goes
to the second argument that we’ll have later on, but
it ties to the first argument in this way. The key
decision here, the key law here, arose in Miller in
2012. Again, preceded by Roper in 2005 and
Graham, I think, in 2012. The law did not prevent
Mr. Garcia from taking the Miller

54a
decision after it was announced in 2012 and asking
for it to be applied to him here in Cass County
District Court in a post-conviction-type matter. He
did not do that. While there is the Teague decision
with which the Court is probably familiar talking
about when things are retroactive -- and that was
discussed in the Montgomery case earlier this year - having said that, if you look at that decision,
together

with

the

Danforth

decision

out

of

Minnesota, what it says is that that did not prohibit
him from raising this claim at an earlier time. So he
could have raised it. As far as the State is
concerned, he probably could have raised it in 2005,
he could have raised it in 2010, but particularly in
2012 when the United States Supreme Court talked
about the inappropriateness of mandatory life
sentences without parole.
THE COURT: So he could have, but does
that prohibit him from now raising it? He could
have. I agree. He could have raised it in 2012 and
2013, but does that prohibit him from now raising
it?
MR. BURDICK: So that -- my argument, as
far as it’s gone, my answer to that would be no,

55a
except that the North Dakota law has a statute of
limitations of two years that went into effect, as I
recall, in 2013. So he would have 2012, 2013,
perhaps 2014, or maybe into 2015, to raise this
claim, and he did not. He could have and did not.
What the State’s argument here is is [sic] that his
failure to do so, under both the Danforth and
Teague analysis and the statute of limitations that
we have for post-conviction relief matters, now
prohibits him from raising it at this time. His
argument, essentially, is untimely.
The advantage of the Montgomery decision
earlier in 2016, January of 2016, said that it was
definitely retroactively applicable. But he could
have exercised this argument several years ago,
didn’t do it in a timely way, and the State’s
argument is that, therefore, he has blown his
statute of limitations and, therefore, should not
have an opportunity to raise it at this time, that
essentially he sat on his rights and cannot now
claim that he was prejudiced and should have an
entitlement to those rights.
There is an argument in our brief about res
judicata, as well, and it’s a little bit tied in with this,

56a
but it relates to all the decisions that have been
made to date on this case, and that this argument is
essentially a repeat of arguments he made in the
past. Although, the State acknowledges that at the
time that Judge Erickson made that decision for the
district court here, Judge Erickson did not have the
benefit

of

the

Roper,

Graham,

Miller,

and

Montgomery decisions. He didn’t have that. But -and neither did the State Supreme Court or the
Federal District Court or the Eighth Circuit Court of
Appeals. But they had Judge Erickson’s underlying
analysis of the sentence that was appropriate in this
case, and I believe that the decisions that were
made in this case in the past are and should be
considered res judicata to him now raising this here.
Sort of dual arguments there. Thank you.
THE COURT: Thank you, Mr. Burdick.
Those limited issues, the State’s motion to dismiss,
misuse

of

process,

res

judicata,

statute

of

limitations, argument, Mr. Gereszek.
MR. GERESZEK: Thank you, Your Honor.
With regard to – I’ll just start with the
misuse of process piece. Essentially it goes – I think
I agree with Mr. Burdick in that regard where it

57a
goes into a little bit of the actual merits of the
supplement, but we have this lineage of cases, this
Roper, Miller, Graham, Montgomery, a lineage of
cases that comes out, and Montgomery comes in
2016, which gives us the retroactive piece. To say
that Mr. Garcia should have filed in 2012 or 2013, it
would

render

Montgomery

moot.

Montgomery

should have never even been decided if it was a
foregone conclusion that every single juvenile who
was sentenced under a scheme like Mr. Garcia
should

have

filed

in

2012,

2013,

or

2014.

Montgomery was a moot point. But it needed to be
decided in order to allow people like Mr. Garcia to
file their applications to apply Miller to their
situations. So we feel that when you look at the
lineage of cases, we needed Montgomery to make
the lineage of cases apply to Mr. Garcia’s situation.
THE COURT: Okay. But, in fact, Mr. Garcia
did, in prior post-conviction applications or other
appeals to the North Dakota State Supreme Court,
talk about the Eighth Amendment and that his
sentence was cruel and unusual, and the North
Dakota Supreme Court “pre” some of the cases
you’re discussing there, said that, no, the Court was

58a
fine under North Dakota law and the federal
constitution and the Eighth Amendment. So he’s
already had an Eighth Amendment bite at the
apple, so to speak, so how many bites at the apple
does he get?
MR. GERESZEK: With all due respect,
when the United States Supreme Court changes
their analysis of the Eighth Amendment -- back in
1996, this was a perfectly valid sentence. In 2000,
this was a perfectly valid sentence. In 2004, this was
a perfectly valid sentence. Once we start the lineage
of cases from Roper through Montgomery, the
change, the shift in the winds, if you will, is coming.
And we see this change in analysis of the Eighth
Amendment, so we have to allow an applicant for
post-conviction relief, if they’ve already had a bite at
an old, if you will, an old Eighth Amendment apple,
the apple has changed. We have a new apple
because the United States Supreme Court has given
us a different apple. So you have to look -- we have
to give him the opportunity to look at -- to analyze
his case under this new analysis that the United
States Supreme Court has given us through their

59a
lineage of cases. So I would respectfully disagree
that he was -- that it’s misuse of process.
And I think that kind of ties into the res
judicata piece where saying that he raised it before,
now he can’t raise it again, would preclude any -would preclude the North Dakota Century Code 2932.1-01 where it says under 3(3), “A petitioner
asserts a new interpretation of federal or state
constitutional law.” So you have that clause in the
North Dakota Century Code that says if there is a
new interpretation, you can bring forth a postconviction application. It doesn’t say that if you’ve
already had it analyzed you can’t do it again. It
would negate that purpose for that clause. That
clause is saying, look, if there’s a change in the
interpretation, you should have the ability to have
your situation looked at if it applies to that
situation. And here, in Mr. Garcia’s case, when you
peel everything back, he is a juvenile in 1996 who is
sentenced to life without the possibility of parole.
Roper, Graham, Miller, Montgomery are those
cases, those specific issues of life without the
possibility of parole of juveniles. When you have this
situation where the cases have been changed, again

60a
kind of using the apple analogy, the apple has
changed. Yes, he may have had a bite at the apple,
but we have a new apple. We have a different apple,
and he should have that ability to at least have the
Court analyze his case under that new auspice.
For those reasons, Your Honor, we feel that
the State’s motion should be denied and his
application should at least be heard by the Court.
THE COURT: Thank you.
The Court being fully advised in the
premises, upon review of the entire file, the Court
has already indicated all the documents that the
Court has reviewed in regards to this matter, the
applicable law, including the line of cases discussed
by counsel, the Court being fully advised in the
premises, the State’s motion to dismiss filed and
dated August 29, 2016, is denied for the following
reasons. Again, we’re talking about the limited
issues on the State’s motion to dismiss in regards to
misuse of process, res judicata, and statute of
limitations.
The

Court

generally

agrees

with

Mr.

Garcia’s counsel, Mr. Gereszek’s arguments, in
regards to this aspect of the matters in front of the

61a
Court at this point in time in that the State’s motion
to dismiss is denied. In regards to this matter,
pursuant to North Dakota Century Code 29-32.101(3)(3), the statute of limitations, the Court deems,
finds, and concludes it does not apply to your statute
of limitations for post-conviction relief as the
petitioner is asserting a new interpretation of
federal or state constitutional or statutory law by
either the United States Supreme Court or -- and
the rest doesn’t matter because the United States
Supreme Court, in this Court’s opinion, Miller at
2012, but certainly Montgomery in early 2016,
Montgomery clearly spoke to the retroactivity of the
substantive rule, a new rule in 2012 of Miller,
retroactively applied by Montgomery in early 2016.
Here, we’re dealing with a sentencing from the
1990s, so that’s retroactive from 2012, along with
more recent U.S. Supreme Court opinion, including
in Tatum, indicates and reaffirms Montgomery’s
retroactivity in regards to this matter in discussion
thereof. Therefore, this is a new interpretation or
claimed new interpretation that would apply to this
case of federal constitutional law by the United
States Supreme Court. Therefore, that exception

62a
applies under 29-32.1-01-3(3). And so that statute of
limitations does not apply.
In regards to the misuse of process in
regards to res judicata, it is true, an accurate
statement, that the Eighth Amendment has been
previously

raised

by

Mr.

Garcia

in

prior

proceedings, including in front of the North Dakota
Supreme Court. The Supreme Court has not found
any sort of federal Eighth Amendment violation
thus far in regards to this matter, and clearly stated
as such. However, the argument was a slightly
different one, frankly. It was an Eighth Amendment
argument that had to do with the failure to provide
guidelines for a sentencing court in a juvenile
matter citing earlier U.S. Supreme Court case law
and such. Again, Miller decided in 2012 is certainly
a new interpretation, and then in 2016 Montgomery
retroactively applying it. These are new items that
were not fully discussed, fully litigated. It’s not a
misuse of process, nor res judicata. Therefore, the
State’s motion to dismiss is denied at this point in
time.
The new jurisprudence upon which Mr.
Garcia’s current application is based is and rises to

63a
the level that it should be heard at this point in
time. Both parties agree it should be heard as a
matter of law, so I will hear discussions as a matter
of law.
The

original

moving

party,

the

post-

conviction application, was filed by petitioner, so I’ll
hear from petitioner’s counsel first. You may
proceed.
MR. GERESZEK: Thank you, Your Honor.
With regard to – I’m going to kind of – I
briefed everything, so I don’t want to waste the
Court’s time reiterating the brief, but I will zero in
on specific aspects of it that I think are pertinent to
this issue and how this -- how Mr. Garcia should be
afforded a post-conviction relief in the sense of not
vacating the judgment, not vacating his conviction,
but allowing him to be resentenced under the new
guidelines that Graham, Miller, Montgomery, and
Roper give us.
When we look at Miller, specifically zeroing
in on the most important factor from Miller, Miller
stated that when you’re going to give a sentence of
life without the possibility of parole to a juvenile, it
should be an uncommon sentence, and it should only

64a
be employed after the sentencing Court takes into
account how children are different and how those
differences counsel against irrevocably sentencing
them to a lifetime in prison.
So essentially what the Miller court told
sentencing courts in 2012 was, if you’re going to do
it, you have to take very specific care when you’re
looking at the factors of the juvenile. And when we
look at the transcript that was provided and we look
at what Judge Erickson looked at in 1996 -- again,
I’m not saying he did anything wrong in ‘96 -- but
under this new analysis, we see, on page 23 of the
transcript, Judge Erickson is talking about the
defendant’s conduct was a result of circumstances
that are likely to reoccur. Towards the end there, he
says, “This is certainly a set of circumstances that
could reoccur at any point.” Well, that flies in stark
contrast to the science that the United States
Supreme Court relied on in Miller where it talks
about the developments in psychology and brain
science that continue to show a fundamental
difference between juveniles and adults.
THE COURT: Sorry to interrupt. With that
line of argument -- and you tell me what your

65a
argument on behalf of your client is, and perhaps
it’s both -- but with that line of argument, if you
take that particular view of the science involving
juveniles and sentencing, life imprisonment without
the benefit of parole, discretionary, because that’s
all that’s left, if that’s left, if you go down that road,
then every single juvenile or child is able to be
rehabilitated.

Okay.

Or

possibly

able

to

be

rehabilitated. And the U.S. Supreme Court hasn’t
said that life without parole, discretionary, is
unconstitutional, an Eighth Amendment violation.
They haven’t said that, have they? I mean, maybe
they will, but they haven’t said it.
MR. GERESZEK: No, I will agree with you
there, Your Honor. They have not said that. But -THE COURT: So do you want this Court -are you asking this Court to say that the trend of
the cases, Miller, Montgomery, even more recently
Tatum on Halloween of 2016, that this Court should
go down that road and, as a Court, not as an elected
legislator, but as a Court, I should make the public
policy determination that it simply is an Eighth
Amendment

violation

for

life

imprisonment,

discretionary, after a homicide by a juvenile? So are

66a
you asking me simply to say that it’s a violation of
the Eighth Amendment period, or are you saying
that it violates the Eighth Amendment here because
Judge Erickson, back in the mid-1990s, did not
comply with the Miller case?
MR. GERESZEK: The latter, Your Honor.
THE COURT: Okay.
MR.

GERESZEK:

I’m

saying

Judge

Erickson, in 1996, when we look at what Miller says
now, Miller says you have to -- if you’re going to do
it, if you’re going to do a discretionary life without
the possibility of parole – I’m not saying it’s
categorically unconstitutional, but if you’re going to
do it, you have to analyze the juvenile that you’re
going to do it to in a very specific light. Given what
we’ve learned in the last 21 years since 1996 about
juvenile development, brain psychology, all of those
factors that the United States Supreme Court
looked at, you need to analyze the juvenile under
those specific characteristics. And I’m citing to that
one specific sentence where he says, “This is likely
to reoccur.” Well, that stands in stark contrast to
the Roper decision in 2005.

Children who have

committed crimes rarely carry that behavior into

67a
adulthood. That comes directly from Roper where
they analyzed this.
THE COURT: And let’s say hypothetically
the Court agrees with the statement, the scientific
statement that you’re claiming there, so this does
not allow a judge to make a different determination?
The judge has to agree with the science in general
and the judge can’t say, yeah, that’s all fine and
good, but not here, and here’s why?
MR. GERESZEK: No, I would say the judge
still has that authority and that ability, but we’re
looking at it from a different lens today than Judge
Erickson was looking at it back then. Judge
Erickson’s experience back then was that this
activity

was

certainly

likely

--

this

set

of

circumstances was likely to reoccur. He goes on on
[sic] page 25 when he’s talking about -- during
sentencing, the middle of the page, line 8, he’s
talking about the person has to be able to –
(WHEREUPON, the phone in the courtroom
began ringing.)
MR. GERESZEK: I wonder if this is Mr.
Garcia?

68a
THE COURT: Let’s just hold tight. So hold
your argument tight. I’ll have staff answer the
phone and maybe it’s Mr. Garcia.
(WHEREUPON, the probation officer for Mr. Garcia
said they would call back in five minutes if the
Court would allow it.)
THE COURT: Okay. So it sounds like they
had some sort of a situation at the prison. I have no
idea if it had to do with your client whatsoever, by
the way. And so apparently he can call back in
about five minutes. And at that point in time, my
intention would be, if they call back, if Mr. Garcia
calls back, that we’ll welcome to join him to the
proceedings at that point in time, but continue with
our discussions at this time. Is that fair enough, for
the petitioner?
MR. GERESZEK: Yes, Your Honor.
THE COURT: For the respondent?
MR. BURDICK: Yes, Your Honor.
THE COURT: So that’s the plan. You may
continue with your argument, sir.
MR. GERESZEK: Thank you, Your Honor.
Referring back to page 25 of the transcript,
of the sentencing transcript, it kind of goes into

69a
what Judge Erickson was looking at at [sic] that
point. He said that Mr. Garcia, at that time, had
shown no remorse, no indication that he had done
anything wrong, no way of looking at the possibility
of being rehabilitated. One of the factors that we see
from the lineage of cases that has come out of the
United States Supreme Court is juveniles, yes, at
their young age, they typically will show a sign of –
they’re susceptible to the brain psychology, the
science, the lack of development, if you will, where
they may not admit wrong. They may not show a
sign of remorse because it’s not -- it hasn’t been
developed yet. So I guess when we’re looking at
what Judge Erickson did in 1996 is he took the
snapshot of Mr. Garcia in 1995 when the crime was
committed, and he didn’t look to the future.
And what the cases are telling us is we have
to analyze these juveniles and these children in the
auspice and under the lens that there is a future.
They are very susceptible to rehabilitation based
solely on the lack of development, the lack of brain
development. You put them in a situation where
they can be rehabilitated, they can be put through
the sense of admitting wrong, the sense of

70a
understanding the situation that they’ve created,
and they can be rehabilitated. But Judge Erickson,
in ‘96, took the snapshot of Mr. Garcia at that shot
in time, and he failed to look at what the future
holds for Mr. Garcia.
THE COURT: Okay. But didn’t he put that
in the context, Judge Erickson himself, on the
record at sentencing, stated in one manner or
another, multiple times, how youth have the ability
to redeem themselves, so a redemption, and so he
came at it from a lens of young people can change,
they can be redeemed, and he simply decided here
that was not going to happen? Is that not what he
said, or you’re of the position that he simply said,
well, this is where he’s at right now and so that’s the
way it’s going to be forever?
MR.

GERESZEK:

I

guess

I

would

respectfully disagree, Your Honor.
THE COURT: Okay.
MR. GERESZEK: When we look further in
the transcript, he does admit, “I have a personal
philosophy. I came into this with a personal
philosophy. Judges have a personal philosophy,” and

71a
he admitted that he had a personal philosophy that
juveniles can be rehabilitated. But then he looked at
Mr. Garcia and said, “I don’t see that in you. I don’t
see that you can be rehabilitated.” And again, he is,
to a degree, pigeonholing Mr. Garcia.
And we’re not asking in any way, shape, or
form that he automatically be released tomorrow.
That’s not -- and that’s not what Mr. Garcia is
asking. He’s asking for the possibility of parole. So,
therefore, he serves a period of time, and then the
parole board looks at him; and if he hasn’t changed,
like Judge Erickson thought he wasn’t going to, then
he doesn’t get paroled. But as the lineage of cases
tells us, and the science tells us, and what we’ve
learned, tells us, juveniles, because of their different
characteristics, their lack of development, their lack
of understanding, the penological goals of the
criminal justice system must be applied differently
to juveniles. So when you look at these goals of the
criminal justice system, retribution, deterrence,
incapacitation, and rehabilitation, you can’t view
them under the same lens that you would an adult.
And because of that, you look at the factors. And
every state has their own code that talks about what

72a
factors a court must look at for sentencing. And I’m
not saying there needs to be a blanket across the
board, but you must look at those factors -- and I
think in North Dakota we have 16 factors -- and
analyze those factors with a juvenile’s state of mind,
not an adult’s. Even though they may be tried as an
adult and convicted as an adult, when it comes to
sentencing, we view them differently because the
nature of a life without the possibility of parole
sentence is the second-most-harsh sentence that can
be given.
(WHEREUPON, the phone in the courtroom
began ringing.)
THE COURT: Sorry for the interruption
again, counsel, but we’ll see if we can get Mr. Garcia
on the phone.
(WHEREUPON, the phone call was unable
to connect into the courtroom.)
THE COURT: Mr. Garcia, can you hear the
Court at all right now or not? (No response.) So
nothing. For the record, at this point in time,
madam clerk and our court reporter – she’s wearing
a couple different hats right now, budget cuts, right
-- she is attempting to get Mr. Garcia on the

73a
telephone on the speakers, but she cannot raise him
on the hand held landline phone, nor can we raise
him on the intercom or speaker system. So hopefully
he’ll call back.
Mr. Gereszek, I apologize for interrupting you
a couple times. So we’re going to probably interrupt
you a third time here in just a minute or two. But,
again, we did wait about 15 minutes before we
started, and technology is a bugger sometimes, but
let’s keep on with the arguments. And if Mr. Garcia
gets to join us or can join us, that would be great.
You may proceed.
MR. GERESZEK: No problem, Your Honor. It
gives me time to think, anyway. I guess the biggest
point -- and again, I don’t want to keep rehashing
my brief because I feel the brief kind of summarizes
the argument very well. The point that we’re asking
this Court to do is grant the post-conviction relief
solely for the purpose of resentencing. And it may
very likely be the outcome that if he comes back and
gets resentenced under the juvenile auspice looking
back in time unfortunately to 1996, he may be
sentenced again to life without the possibility of
parole. But because the sentencing court in ‘96

74a
couldn’t look into the future to see what the United
States Supreme Court was going to do in 2012 in
Miller, they didn’t analyze Mr. Garcia under this
juvenile lens. So allow a court, a sentencing court, in
this jurisdiction, to resentence him using the Miller
analysis, using the Graham, Roper, Montgomery,
using this analysis and this knowledge that we have
now to determine if it is appropriate for him to be
sentenced to life without the possibility of parole.
That’s all we’re asking, is that he simply be
resentenced under the new guidelines. That’s
essentially all we’re asking, Your Honor.
THE COURT: And there’s no U.S. Supreme
Court case law that says I must do that, correct?
MR. GERESZEK: As of right now, no. The
Supreme Court rulings simply state you can’t send a
juvenile to death, we can’t sentence them under a
mandatory sentencing scheme to life without the
possibility of parole. And then Miller carries it a
step further and essentially says if you’re going to
do it, do it very uncommonly and do it with a very
specific lens.

75a
THE

COURT:

Thank

you,

counsel.

(WHEREUPON, the phone began ringing in
the courtroom.)
THE COURT: Mr. Garcia, are you on the
telephone with us right now? I can hear someone
just faintly. If you would turn up the volume
greatly, madam clerk. Okay. So we have the volume
as loud as it goes.
Mr. Garcia, are you on the telephone with us?
THE PLAINTIFF: Nope.
THE COURT: Mr. Garcia, are you on the
telephone with us? (No response.) So about a minute
ago, or not even a minute ago, I could hear
something faintly in the background, and we turned
it up as loud as we could, and now there’s simply no
answer on the telephone line.
MR.

GERESZEK:

I

heard

counselor

Johannes, which is his counselor, Your Honor.
THE COURT: Okay.
MR. GERESZEK: I heard that name, but
then that’s the last I heard.
THE COURT: Okay. So we’ll sit dead air
time. I appreciate everyone’s patience here, counsel
included. Thank you. Madam clerk is doing the best

76a
work she can, and she has little or no control, just
like the Court, over this technology, but let’s wait a
minute to see if they put Mr. Garcia on the phone
here in the next minute before we need to interrupt
Mr. Burdick. Because I think you were done with
your initial argument on that phase; is that a fair
statement?
MR. GERESZEK: Yes, Your Honor. THE
COURT: Thank you.
THE PLAINTIFF: Hello?
THE COURT: Mr. Garcia, are you on the
telephone with us?
THE PLAINTIFF: No.
THE COURT: Is that you, Mr. Garcia?
THE PLAINTIFF: No.
THE COURT: Okay. So Mr. Garcia kept
saying, “No.” Have you had a chance to talk to Mr.
Garcia as recent as yesterday; is that correct?
MR. GERESZEK: That’s correct, Your Honor.
Yes.
THE COURT: Okay. Does that sound like Mr.
Garcia’s voice? He keeps saying “no,” but -THE PLAINTIFF: It’s Mr. Garcia. I’m saying,
“Hello.”

77a
MR. GERESZEK: That’s Mr. Garcia, Your
Honor.
THE COURT: There we go. Okay. So, Mr.
Garcia, this is Judge Webb in District Court in
Fargo, Cass County, North Dakota. Can you hear
me?
THE PLAINTIFF: I can hear you.
THE COURT: Okay. So, Mr. Garcia, you don’t
need to speak or anything, but if you can hear me
now, you’ll be able to hear the attorneys. You’re
joining us at 2:19 p.m. central standard time here in
Fargo. We commenced the hearing. It was to
commence at 1:30 today. We waited until about
1:45. I think it was 1:44 or 1:43, but the record will
reflect it. We waited about, oh, 10, 15 minutes for
you to call, but you hadn’t called, so we started the
hearing without you. Counsel have been making
their arguments in regards to this matter. You are
welcome and allowed to listen along telephonically
and appear telephonically by order of the Court and
applicable North Dakota law and agreement of the
parties. So you’re welcome to stay on the telephone
line. But there’s not going to be testimony or
witnesses, but you’re welcome to listen to the

78a
arguments, as they certainly do pertain to you, to
say the least.
Your counsel has argued. Mr. Burdick has
argued. The Court has thus far denied the State’s
motion to dismiss your post-conviction application
under the issues of res judicata, misuse of process,
and statute of limitations. So I denied the State’s
motion to dismiss. We are now in the middle of
arguments as a matter of law on whether or not the
Court should grant your application or summarily
dispose of it by denying it and dismissing it. So
we’re in the middle of those arguments. Your
counsel, Mr. Gereszek, has argued for many minutes
now. Now it’s Mr. Burdick’s turn for the State of
North Dakota. So you’re welcome to listen, Mr.
Garcia.
Mr. Burdick, for the State.
MR. BURDICK: Thank you, Your Honor.
Let me step back to the Miller case for just a
moment. In the Miller case, the appellant -- the
defendant had requested the Court, their counsel
had requested the Court, to establish a categorical
ban on life without parole sentences for juveniles,
even in homicide cases, who were under the age of

79a
14. And the Supreme Court, at that time, refused to
do that, instead holding that mandatory sentences
were inappropriate. So when invited to speak to the
topic of whether discretionary sentences were
unconstitutional, they said, we are not speaking to
that. They did go on to speak at some level about the
kinds of things that they hope that judges would
take into consideration when they were looking at a
discretionary sentence. The question as to whether
that hope that they have indicated in the Miller
decision requires a Court to do that is still, I think, a
bit uncertain. There are cases since the Miller
decision in the Tenth Circuit, the Seventh Circuit,
the First Circuit, that decided that they did not have
to do that, that all that Miller was requiring of them
was banning mandatory sentences. There’s also one
out of the Eighth Circuit in 2016. That’s a little
different set of circumstances. That’s the Jefferson
case, United States v. Jefferson. At first, the
defendant was sentenced to life without parole, I
think, and then they resentenced him to something
on the order of 600 years. In any case, in all of these
four decisions, the Eighth, Tenth, Seventh, First, I
understand those Courts to have said this is not a

80a
mandatory requirement under Miller that they
review this in the way that Mr. Garcia’s counsel is
considering. So –
THE COURT: Sorry to interrupt. The Ninth
Circuit would disagree, at least on analogous
cases, de facto life sentences. The Ninth Circuit has
said you have to do the analysis. Am I correct on
that or incorrect on that?
MR. BURDICK: I believe Your Honor is
correct in that regard. I’m not suggesting to you that
the United States courts are uniform in their
determination of this, but I’m saying that I
understand these four circuits to have established
that position, including the Eighth Circuit. So I
agree that there’s not just one idea in this regard.
Having said that, the argument that the
State made in its brief to the Court is essentially
this. That Judge Erickson took into account at the
time of his sentencing all the kinds of things that
the Miller Court and some of these earlier decisions
had in mind that a judge assess in a discretionary
sentence. So notwithstanding that, I’m arguing that
it doesn’t really require the Court to do that. The
Court did do that back in the sentencing in Mr.

81a
Garcia’s case. Clearly, the State acknowledges that
the Court did not have the benefit of Roper,
Graham, Miller, and Montgomery at the time it
sentenced Mr. Garcia. But the issues that those
Courts had in mind, and some of the statutory
considerations that other states have put in place, or
that Supreme Courts in other jurisdictions like
Louisiana, as mentioned in my brief, suggest you
put in place when doing this kind of analysis, are
the kinds of things the State argues that Judge
Erickson did. So, for example, he started out, as this
Court is aware, and I won’t go through all the things
in my brief, he said, “I came to this case with a
personal philosophy, and that philosophy is that
young people are never beyond redemption. My
personal philosophy is that particularly young
people are capable of changing, capable of reforming
their lives, capable of starting a new. I came to this
case looking for some reason, some justification,
some excuse to hand down a sentence less than the
maximum.” And then he went through some
discussion about the heinousness of the crime here
and the circumstances under which it occurred,
saying, among other things, “It’s hard to imagine a

82a
more serious harm,” that Garcia shot Ms. Tendeland
at point blank range and allegedly because she had
looked at him the wrong way. That he had a serious
history of serious assaults. That’s the way the judge
put it. That he had some 16 convictions, as he
referred to them, over the prior two years, including
five assaults or terroristic threats, evidencing a
criminal

pattern

of

increasing

violence

and

consistent violence. He said one of the inalienable
attributes of a human being is the possibility of
redemption or rehabilitation. So he’s taking into
account these things and Garcia’s youth at the time
he is pronouncing his sentence. He had in hand, as
well, an analysis by the State Hospital, which was
argued by both the State and Garcia’s counsel, Mr.
Mottinger, at that time about Garcia’s limited
amenability to rehabilitation. As Mottinger argued,
it doesn’t mean he had no possibility of -- no
amenability to change, but the State Hospital said -I can’t remember the exact language – but limited
ability.
So my point, again, is that the judge took into
consideration already what the Courts in the
ensuing 15 years have asked judges to consider,

83a
whether or not he needed to do so under the law.
And having done all that, he came to the conclusion
that Mr. Garcia should be sentenced to life without
the possibility of parole. As this Court knows and
has noted in the State’s –
THE

COURT:

Sorry

to

interrupt,

Mr.

Burdick.
MR. BURDICK: Please.
THE COURT: But, and you can disagree with
this, but there seem to be certain key words or buzz
words, quote, “permanent incorrigibility,” end quote,
quote, “irreparable corruption,” end quote. These are
words used in Miller and used again by Justice
Sotomayor in her October 31st, 2016, concurrence
on a per curiam opinion, the Tatum case. You don’t
want to always hang your hat on a per curiam
opinion, right, but these are buzz words, clear words
using

quotes,

“permanent

incorrigibility,”

“irreparable corruption.” Judge Erickson didn’t use
those words. Fair enough?
MR.

BURDICK:

The

acknowledge that, Your Honor.

State

would

Those words had

not been produced for him to use. The fact that he
did not utter them from the bench is not necessarily

84a
indicative that he did not consider them. The State
would assert that, in fact, he did consider that kind
of thing, as reflected in his comments.
Now, this Court, Mr. Gereszek, myself, we
weren’t there at the time that this went on. What
we have is the record that was established on the
transcript of the sentencing, so that is what Judge
Erickson said. Obviously, this Court has to be in a
position of trying to discern, at least from the State’s
perspective, whether that satisfied the kind of
analysis that the Miller court was considering on
discretionary life without parole sentences, if this
Court first decides that the district court must have
done that. So my argument is it did not have to do
that if you’re looking at the decisions in the First,
Tenth, Seventh, and Eighth Circuit. But having said
that, even if it did, the Court undertook the kind of
analysis that would be appropriate. I don’t think,
when the Court mentioned those particular words,
that a district court would have to repeat those
identical words. Obviously, if I were uttering a
sentence today from the bench, I would probably try
and take a look at using those kinds of words in

85a
making my decision, but I don’t think that that’s a
requirement of any court in any place. Thank you.
THE COURT: Thank you. Further argument,
Mr. Gereszek?
MR. GERESZEK: Just a brief response, Your
Honor. With regard to – we’ll acknowledge that
Judge Erickson in his decision, and it can be seen -again, I don’t want to waste the Court’s time -- it
can be seen in the transcript. He does analyze, he
does talk about, juvenile youth offenders, but one
thing that we see a change from 1996 to 2016 is a
knowledge of youthful development, a knowledge of
brain development, of psychology. And just one note.
He makes a comment when he’s talking about this
analysis of the juvenile -- again on page 25 -- and he
states, “These types of changes are likely to occur in
young people” – he’s talking about the changes, the
growing, the rehabilitation – they’re likely to change
– “they’re more likely to change in young people
than in old people because the young people’s
personalities are still in formation. However, in
order for this to be accomplished, the person must
be willing to admit the wrongfulness of their
conduct.” What we see in the change in the

86a
psychology and the brain development is a youthful
person won’t admit wrongfulness, won’t admit those
things, until later on because of societal impacts,
friends, peer influence, that type of thing.
So he’s analyzing -- unfortunately, he was analyzing
Mr. Garcia from an adult standpoint as a juvenile.
He’s saying, if you’re not willing to admit wrong
now, there’s no way I can rehabilitate you. What we
learn later, through Roper, through Graham,
through Miller, the science tells us, at the time of a
juvenile committing an offense, it’s very likely they
won’t admit wrong. It takes time. Which is why,
when we look at Miller, they said, give them the
chance of rehabilitation. Give one of the penological
goals, rehabilitation, a chance.
THE COURT: But isn’t that a great argument
for the United States Supreme Court, not this
Court, but the United States Supreme Court? Isn’t
that a good argument to argue to them to say the
Eighth Amendment is unconstitutional, sentences,
even discretionary, life without parole for homicides
for juveniles? I’m not sure how -- what you’re saying
here is somehow Judge Erickson would be better
informed today if he were to sentence today. But

87a
there’s also hypotheticals. This happened in the
mid-‘90s. The trial was in the mid-‘90s. The
sentencing was in July of 1996. And so we are to go
back in time, retroactively, right? We’re supposed to
go back in time to apply Miller. Fair enough. But
how does that actually work? Okay. If it is an
application of, well, some sort of a finding or a
conclusion as a matter of public policy by a court,
frankly, I think that should be the United States
Supreme Court, but it should be the legislative
branch more so. But if the U.S. Supreme Court
wishes to do that, they get to do that kind of thing,
right, in their analysis of the constitution and the
Eighth Amendment. That’s fine and good. But
wouldn’t that be simply a prohibition, which they
have not done, for life sentences without parole for
juvenile homicides? It just seems that you seem to
go back to the same argument about the fact that
life sentences are just an anathema, they’re wrong,
for juveniles. And you can get some science to back
that up. I understand that. Okay. But I’m a judge of
the law, and the law, right now for me, is that they
should be uncommon under Miller, but they can
happen.

88a
Disagree with me? Tell me where I’m missing
your argument.
MR. GERESZEK: I will agree with you that
Miller does not do a categorical ban on life without
the possibility of parole. And if I’m misstating it, I’m
not stating that either. I think the Miller court has
made it very clear, and as Mr. Burdick outlined, the
Court did not say that in Miller. They were asked,
and they did not say that. They simply said that a
mandatory scheme is unconstitutional because, and
the reason they used that analysis, the reason they
said that, is because you have to analyze juveniles
vastly differently than adults. So that’s where my
argument rests below the unconstitutionality bar
but at the basis of we need to analyze Mr. Garcia as
a juvenile, given what we know now, because Miller
stated that we have to analyze juveniles differently.
And that, again, goes back to when I rested earlier.
All we’re really asking for is a resentencing. And it
is, again, I’ll openly admit, very likely -- or, I
shouldn’t say very likely – it’s possible he could be
resentenced to life without the possibility of parole
under the Miller analysis, but he should be afforded

89a
the Miller analysis in sentencing. That’s simply all
we’re asking, Your Honor.
THE COURT: Thank you.
Mr. Burdick.
MR. BURDICK: Just one thing, Your Honor.
The Court had referenced Tatum, the Arizona case,
a little earlier, and Judge Sotomayor’s commentary
in there. I would note, because most cases revolve on
their facts, that she also said in that concurrence
that the sentencing judge did not undertake the
evaluation Montgomery requires. He imposed a
sentence of life without parole finding that Purcell
was quote, “likely to do well in the structured
environment of a prison,” and that he possesses the
capacity to be meaningfully rehabilitated. That was
not what was said, or anything close to that, in Mr.
Garcia’s case. So I just wanted to point that out to
the Court, and I’m sure you’ve probably already saw
that. Thank you.
THE COURT: And that was one of five cases
that were remanded to the Arizona state courts per
curiam for this issue. Fair enough, Mr. Burdick?

90a
MR.

BURDICK:

I

can’t

remember

the

number, but, yes, I believe there were a number of
them.
THE COURT: Okay. Mr. Gereszek, if you
wish to argue briefly, you may one more time.
MR. GERESZEK: No, Your Honor.
THE COURT: Thank you. And you’re done,
Mr. Burdick?
MR. BURDICK: Yes, Your Honor.
MR. GERESZEK: Your Honor, if I may,
briefly? And I don’t know if this is appropriate or
not. I do know Mr. Garcia has prepared a statement
for the Court. I know we talked about not calling
witnesses and not presenting evidence. He has
prepared a statement, if the Court is willing to
listen to that statement at this point. I had talked to
Mr. Burdick about it. I think he has an objection
specifically to the statement, but I just wanted to
present it to the Court.
THE COURT: Okay. Mr. Burdick, your
thoughts?
MR. BURDICK: Your Honor, my -- this was
intended to be a legal argument. I understand that
Mr. Garcia wants to say something. I have some

91a
sense of what he’s going to say based on what Mr.
Gereszek and I had spoken about, so I object
because I don’t think it’s appropriate. However, I
think that’s really within the Court’s jurisdiction to
decide. And I would note, having said that, that
there is a small piece of my brief which contains a
commentary about his current situations and how at
the time that he filed this matter he was in solitary
and was unable to hold a job because of that. One
presumes that it was because of his behavior in the
penitentiary, but I don’t know more detail than that.
So I leave it entirely up to the Court as to how to
address that. Thank you.
THE COURT: Okay. Mr. Gereszek, any
statement the Court would allow from Mr. Garcia
would not be evidence for the purposes of this
hearing, but simply an allowance for him to make a
brief statement. Is that what’s being requested
here?
MR. GERESZEK: Yes, Your Honor.
THE COURT: Okay. Mr. Garcia, are you still
with us? (No response.) Maybe he’s not even still
with us anymore. Mr. Garcia, this is Judge
Webb. Are you still with us?

92a
THE PLAINTIFF: Can you hear me?
THE COURT: I can just barely hear you,
Mr. Garcia. Can you hear me, Mr. Garcia? If you
could get close to the microphone or the phone, very
close to the microphone or phone, and let me know if
you can hear me.
THE PLAINTIFF: I can hear. Can you hear
me? This is as close as I can get.
THE COURT: Okay. We can hear you. When
you get that close, I can hear you, but just barely.
Mr. Garcia, if you’d speak as loudly as you
can, as closely as you can to the phone. I will give
you a minute or two here just to make a brief
statement. It’s not evidence, but the Court will, in
its discretion, allow such a brief statement. Speak
loudly, speak clearly, right into the phone, as close
to the phone as you can get. Don’t be afraid of being
too loud.
Okay. Go ahead, Mr. Garcia.
THE PLAINTIFF: It’s been 21 years since the
death of Cherryl Tendeland, since Pat Tendeland
was injured and lost his wife, and since Connie
Guler witnessed that horrific scene. With every
passing day, I become more painfully aware of that

93a
time and how senseless and horrible my actions
were on the night of November 15th, 1995.
My intention now is to explain how I arrived
at that point, and, by so doing, to answer all possible
questions that still remain, and hopefully give some
measure of closure to the Tendeland family, the
Guler family, and my remaining family.
My life as a kid and a young man can be
characterized by one thing: a consistent and
pervasive disbelief in all things. I fostered this
disbelief as a defense mechanism against the
violence and chaos of the environment I grew up in.
It was a detachment from the world that allowed me
to cope with the reality I did not understand. There
is no explaining poverty, violence, and addiction to a
youngster. There is no consoling philosophy or
clarifying rationalization that offers escape. There is
only a feeling as primal as that of hunger, and it is a
deeply imbedded instinct to flee. I could not
physically flee my environment, so I flowed inward
and

developed

aforementioned

a

sense

of

silence

detachment

that

impenetrable to most things.

and

the

became

94a
Many of you have wondered why I never
expressed remorse. Well, that is part of the reason,
but it was against my conditioning to express myself
outward. The other part was that I was advised not
to speak by my attorney Steve Mottinger, who had
good reasons for doing so. One, that because I was
not willing to accept responsibility for the crime, it
would be disingenuous. And two, that doing so
would hurt my appeal. The simple truth is that had
I said then what I’m saying now, we would not be
here today arguing about this sentence. I would
have been sentenced to life with parole, and not life
without parole.
Up until the age of 12, my behavior had never
become criminal; but in my twelfth year, something
occurred that destroyed me utterly. My mother was
murdered. Her name was Rosalinda, and in the
prime of her life, she was stabbed to death by three
assailants. To this day, I do not know who they are
or why they did what they did. What I do know is
that the consequences of their crime carried on
through me from the streets of San Antonio, Texas,
to the Fargo-Moorhead community. The sorrow and
rage that festered within me blinded me so that I

95a
began to act with a complete disregard for my life,
as well as the lives of others. I had no trust of
grown-ups, especially authority figures, so I kept my
grief to myself and slowly descended into an
all-consuming darkness. That I would hurt someone
or end someone’s life was inevitable. Thinking back
on my escalating criminal behavior, I see it clear as
day. It was inevitable but preventible. It was an act
in a human story.
I alone murdered Cherryl Tendeland, and for
that I am truly sorry. Only in coming to terms with
my mother’s death was I ever able to come to terms
with Cherryl’s death, but that I would cause others
the pain and sorrow that was mine makes their
suffering all too real with my eternal torment.
I cannot deny any wrongdoing. I will not deny any
wrongdoing. I robbed Fargo-Moorhead of the sense
of innocence that it enjoyed by not knowing that
kind of violence. That was mine to bear. Although
Fargo-Moorhead wasn’t perfect, it did offer a sense
of refuge to me and my younger brothers. I repaid
that with tragedy. And for that too, I am sorry. But
the boiling race relations between the migrant
Latino community and the native residents of

96a
Fargo-Moorhead were so great and so bitter with
oppression that that is also something I regret. That
I caused hearts and minds to have doubts,
suspicions, and resentments that were never there
is not lost on me. What emotional and spiritual
damage I caused to all of those affected by my crime
is incalculable and is most likely being manifested
to this day in one behavior or another. I am
powerless to change the past. If I could, I would. But
I am not powerless in this moment. And for those of
you who are still chained to my crime, I say to
forgive me for your sake. Don’t hate me any longer
at the continuing expense of your life. There is no
evil or harm you can wish upon me that has not
been carried out already. My soul only grows in
depression to my understanding of the value of life.
When the grave bears away into its depths a single
human life, the soul of humanity is diminished. I
ended Cherryl’s life and so I was diminished more
than that. I truly am sorry.
That’s all, Your Honor.
THE COURT: Thank you, Mr. Garcia.
Anything further, Mr. Gereszek?
MR. GERESZEK: No, Your Honor.

97a
THE COURT: Anything further, Mr. Burdick?
MR. BURDICK: No, Your Honor. Thank you.
THE COURT: The Court being fully advised
in the premises, upon review of the entire file,
noting the comments of counsel, the applicable law,
the line of cases discussed by the United States
Supreme Court and other Courts, its review of the
file,

including

the

sentencing

transcript,

the

arguments of counsel, the Court being fully advised,
the Court chooses to rule from the bench in regards
to this matter at this point in time. The Court
appreciates counsel’s patience here as the Court
explains itself on the record for its ruling and
reasoning and rationale.
The

Court

being

fully

advised

in

the

premises, the Court makes the following. The Court
in regards to this matter, in taking a look at each of
the party’s motions for summary disposition of this
post-conviction application matter, rules as follows:
The defendant’s motion for summary disposition is
denied. The State of North Dakota’s motion for
summary disposition is granted in regards to this
matter.

And

the

petitioner’s

post-conviction

application is denied and dismissed, that being the

98a
petitioner Garcia’s application of February 1st,
2016.
So the respondent State of North Dakota’s
motion for summary disposition is granted, and the
February 1st, 2016, post-conviction application of
Mr. Garcia is denied and dismissed for the following
reasons.
The Court first starts with a discussion and
makes a statement that, as a matter of law, the
Eighth Amendment does not prohibit discretionary
life without parole sentences for juvenile offenders
in homicide cases. The Court wishes to digress or
take a moment to do a brief synopsis of some of the
many cases involved in the Court’s determination
here and arguments of counsel. The Court notes at
this point in time from the United States Supreme
Court in Roper, 543 U.S. 551 (2005), the United
States

Supreme

Amendment

Court

prohibits

held

that

juvenile

the

offenders

Eighth
from

receiving the death penalty. In Graham v. Florida,
560 U.S. 48 (2010), the United States Supreme
Court barred juvenile offenders convicted of nonhomicide offenses from receiving life imprisonment
without parole. Further, the United States Supreme

99a
Court in Miller v. Alabama, 132 S.Ct. 2455 (2012),
in that, the United States Supreme Court struck
down all mandatory life without parole sentences for
juvenile

offenders,

holding

juveniles

are

constitutionally different than adults due to their
diminished developmental capacity and greater
prospects for reform. Miller also required sentencing
courts to find that juvenile offenders will continue to
be a danger to society and make a finding of
permanent incorrigibility. The Court also stated,
quote, “Even if a Court considers a child’s age before
sentencing him or her to a lifetime in prison, that
sentence still violates the Eighth Amendment for a
child

whose

transient,

crime

reflects

immaturity.”

In

unfortunate,

yet

Montgomery

v.

Louisiana, the Supreme Court at 136 S.Ct. 718
(2016) opinion, the Court extended its Miller holding
retroactively to allow collateral view of sentences in
state

courts.

That’s

what

we’re

doing

here.

Montgomery also clarified the ruling in Miller
reflected a substantive rule by which life without
parole could not be imposed upon a juvenile without
a

finding

irreparable

of

permanent

corruption.

incorrigibility

Recently,

and

Halloween,

100a
October 31st, 2016, the United States Supreme
Court decided Tatum v. Arizona, U.S. Supreme
Court, 15-8850, cited at 2016 WL 1381849, from the
United States Supreme Court, October 31st, 2016.
Tatum is a per curiam opinion, in which the Court
does note and understands it is dangerous and
unwise, frankly, to put great reliance on per curiam
opinions. Nonetheless, there was a concurrence by
Justice Sotomayor, and there was a dissent by
Justice Alito, which was joined by another justice.
The per curiam opinion basically remanded five
cases for review back to the Arizona state courts for
sentences imposed post-Miller. That’s a little bit
different than the case here. That language there
from the concurring, obviously, opinion of Justice
Sotomayor of the per curiam U.S. Supreme Court
opinion indicates that a sentencing court must
address the question of whether the defendant was
among the very rarest of juvenile offenders, those
whose crimes reflect permanent incorrigibility.
Further, she indicated -- Justice Sotomayor -- in her
concurrence, “It is clear after Montgomery that the
Eighth Amendment requires more than mere
consideration of a juvenile offender’s age before the

101a
imposition of a sentence of life without parole. It
requires that a sentencer decide whether the
juvenile offender before it is a child whose crimes
reflect transient immaturity or is one of those rare
children whose crimes reflect irreparable corruption
for whom a life without parole sentence may be
appropriate.”
Further, there is persuasive authority on this
issue, including from the Eighth Circuit Court of
Appeals, cited by the State of North Dakota. The
Eighth Circuit Court of Appeals, a Federal Court,
persuasive authority to this Court, but nonetheless
recently, in 2016, indicated, among other things,
that the U.S. Supreme Court in Roper affirmed a
discretionary sentence of life without parole for a
juvenile homicide offender. Our sister circuits have
uniformly declined to apply Miller’s categorical ban
to discretionary life sentences, and in United States
v. Barraza affirmed a federal life sentence for a
defendant

who

committed

crimes,

including

homicide, at the age of 16. Consistent with these
authorities,

we

reject

Jefferson’s

categorical

challenge to his sentence.
So categorically, this Court is of the

102a
opinion, like the Eighth Circuit, and I think pretty
clearly Miller and Montgomery still allow for, as a
matter of law, such a sentence as handed down by
Judge Erickson in the mid-‘90s, even applying
retroactively what we have learned on today’s date.
Further in regards to this matter, if necessary
in its discussion of this matter and additionally,
sentencing here by Judge Erickson in July of 1996
did comply with and satisfy Miller and Montgomery,
and at a minimum satisfactorily or substantially
complied with the requirements of Miller and
Montgomery. The record would reflect that Judge
Erickson

did

incorrigibility”

not
and

use
did

the
not

words
use

“permanent
the

words

“irreparable corruption.” That’s without dispute,
and I don’t think either side really argues that. I
don’t believe, although they are terms of art clearly
used by certain justices of the United States
Supreme Court, that it requires, in hindsight, even
retroactively applied, for Judge Erickson, back in
the mid-‘90s, to have somehow figured out the
correct exact words to use. What is important is to
take a look at the context, what we have learned
from Miller, Montgomery, and apply it back in time

103a
retroactively to what Judge Erickson did and what
did he say he did and why he did it at the time of his
sentencing.
Clearly, under the Eighth Amendment, there
is a discussion in regards to this matter about cruel
and unusual punishment, and I won’t go through
the discussion from Graham, from Roper, because
the law is what the law is in regards to that matter.
However, this Court does note I am a state district
judge in the state of North Dakota. The U.S.
Supreme Court in Atkins at 536 U.S. 304 (2002)
indicated that the clearest and most reliable
objective indicium is that the legislation enacted by
the country’s legislatures, a lot of them talking
about public policy issues, further from the North
Dakota Supreme Court, which is controlling to me,
for example, State v. Vandermeer, 2014 ND 46, at
paragraph 19, the North Dakota State Supreme
Court has indicated to me that North Dakota’s
jurisprudence requires deference to the legislature
on questions limited to public policy. I am a judge.
I am not a legislator. The North Dakota legislature
has had more than one session, multiple sessions,
after Miller, a couple of them anyway after Miller

104a
and other progeny – they’re in session right now -in order to tweak or change the discretionary ability
of a trial judge in a juvenile case, homicide,
transferred to adult court to impose, if the judge
deems it appropriate under North Dakota law,
applying that law, a life sentence without the
possibility of parole. The legislature has not taken
that away from the courts, Presumably they have
done so knowingly. They’ve had the opportunity to
do so. Some states have actually changed their
statutory configurations as set forth in petitioner’s
brief. The majority of states have not. 30-some
states still allow for such a sentence, as does the
state of North Dakota. And I take my public policy
direction from the legislature, as I am a judge. That
is not to diminish the ability of the United States
Supreme Court to tell me otherwise, because they
sure can. And certainly some of their discussion of
cruel and unusual punishment intertwines with
public policy issues. A chief justice in his dissent in
Miller spoke of that. So I’m mindful of that. And I
understand I’m able to do that. But in the end, the
North Dakota Supreme Court, and I think the
United States Supreme Court, has said we take

105a
some direction from the legislators who are elected
by the people.
Further in its discussion here today, under
Miller and Montgomery, we take a look, then, at
what did Judge Erickson do and whether he
complied with, satisfied, Miller and Montgomery in
his sentencing, and that being the sentencing
transcript of July 2nd, 1996. The Court first here -and the Court will read from parts of it -- in its
findings and conclusions finds that Judge Erickson
did

comply,

did

satisfy,

Miller,

Montgomery,

retroactively applied to this sentencing in 1996, if it
is necessary. And in addition to the earlier findings
and conclusions of this Court, at the sentencing,
looking at the transcript, Judge Erickson clearly
indicated -- because it’s important to put things into
context -- that he considered the presentence
investigation, documents in the court file, the
information, police reports, a statement given by
Mr. Garcia, a report from the North Dakota State
Hospital, victim impact statements. Okay. There
also was lengthy discussion by then state ‘s attorney
Goff, by then attorney for Mr. Garcia, Mottinger, in
sentencing. Those discussions included at times

106a
discussion of youth, discussion of the State Hospital
report. It included the presentence investigation. It
included the criminal history of Mr. Garcia. And so
youth was discussed by counsel, putting this into
the context of how and when Judge Erickson spoke
and Judge Erickson imposed the sentence under
question and in question here on the post-conviction
application.
On page 21, commencing at line 14, Judge
Erickson then indicates that he’s going to pass
sentence. He does an analysis under the North
Dakota sentencing factors 12.1-32-04, including
subdivision 1. Important to our discussion here
today, I’d like to point out the language, his
discussion, his statements, that I do believe, taken
as a whole, put in the proper context, then do
comply with Miller, Montgomery, retroactively
applying to this sentence by Judge Erickson in 1996,
and that Judge Erickson’s findings, conclusion, and
order,

his

reasons,

rationale

for

sentencing,

substantially comply, frankly, satisfy, Miller and
Montgomery. Judge Erickson, in several of these
pages, discusses, but more importantly, considered
those factors that apply to our discussion here

107a
today. On page 22 he speaks of the youth of Mr.
Garcia, including on line 8, “There are substantial
grounds present which tend to excuse or justify the
defendant’s conduct.” That’s one of the factors to
consider. He then says, “The only argument that
seems to have been offered to excuse or explain this
conduct has been youth and/or drug use.” Later on
line 13, Judge Erickson says, “In fact, juveniles –
the defendant’s juvenile history would indicate that
he has a serious history of serious assaults and that
his problems are most likely the result of an
unresolved anger problem and that he possesses
some sort of an explosive personality.” Okay. So he’s
talking about future behavior and his history there,
is what he’s talking about. On page 23, Judge
Erickson, in line 8, talks about the defendant’s
history of previous offenses. Line 10, the juvenile's
history. It appears there are 16 convictions in the
past. Line 15 talks about those 16 priors were five
assaults or terroristic convictions. “The defendant
has shown a criminal pattern of increasing violence
and consistent violence.” The bottom of that page,
23, indicates, “Mr. Garcia acted on an impulse. That
impulse was the result of being looked at the wrong

108a
way. This is certainly a set of circumstances that
could reoccur at any point.” Further, the next page,
page

24,

Judge

Erickson

talks

about

future

likelihood of criminal activity. Line number 6, “The
defendant’s prior history indicates that he’s a oneperson judicial wrecking crew. He’s committed any
number of crimes, and I think that there’s no reason
to believe that he’ll refrain from committing crimes
in the future.” So in the context of his discussion
that we are talking about, a youthful person, a
juvenile person, clearly the judge has recognized
that. And that is insufficient under Miller, just to do
that, but he’s done that. He then is now discussing
what he’s talking about here, that there’s no reason
to believe that he’ll refrain from committing crimes
in the future. He’s now not just acknowledging we
have a young person here, a youthful person here, a
child under North Dakota law, but let’s take a look
at it in the context of what I know, what I’ve seen in
the reports, in the presentence investigation report,
and he has no reason to believe he’ll refrain from
committing crimes in the future. It sounds very
close

to,

although

not

the

same

words,

as

109a
“permanent

incorrigibility”

or

“irreparable

corruption.” The Court believes that it satisfies it.
Okay. Moving along. Further on that same
page, line number 11, it says, “He’s been involved in
the probation system for years and has failed to
respond to treatment.” Then he goes on in a further
discussion, starting on page 24, number 34, “The
fifteenth factor is other factors. There are a couple of
other factors that the Court deems to be significant.
The first is Mr. Garcia’s youth. All human beings
possess certain inalienable attributes, and one of
these

is

the

possibility

of

redemption

or

rehabilitation. It is possible for a person to undergo,
as a result of a life-changing circumstance, youth,
spiritual and personal change. These types of
changes are more likely to occur in young people
than they are in older people because in young
people their personalities are still in formation.
However, in order for this to be accomplished, the
person must be willing to admit the wrongfulness of
their conduct, their powerlessness to change what
has already happened, and to express a real
willingness to make amends to the fullest extent
possible.” Again, Judge Erickson is saying that there

110a
is

redemption.

There

are

certain

inalienable

attributes to young people, the possibility of
redemption, rehabilitation. He’s saying, yes, all
things

that

Miller

says

that

he

should

be

considering, but here he’s made a decision. He’s
already stated it, and he further states it, that Mr.
Garcia has not demonstrated he understands the
seriousness of his crime or that he has changed as a
result of his experiences. “I came to this case with a
personal philosophy. I think that it’s safe to say that
every judge, when they take the bench, comes to
every case with a personal philosophy. My personal
philosophy is that young people are never beyond
redemption.

My

personal

philosophy

is

that

particularly young people are capable of changing.
They are capable of reforming their lives, that they
are capable of starting anew. I came to this case
looking for some reason, some justification, some
excuse, to hand down a sentence less than the
maximum. Mr. Garcia has given me no alternative.
He has given me no opportunity.” He then sentenced
Mr. Garcia for the murder for the rest of his natural
life to be held there without the possibility of parole,
a harsh sentence by any account, certainly as judged

111a
by the U.S. Supreme Court in general. But
nonetheless, Judge Erickson satisfied, complied
with, Miller, Montgomery, retroactively applied,
that he didn’t even know about back in 1996, by not
only acknowledging that youth is a factor, but a
mitigating factor, and not only indicating his
personal

views

that

there

is

redemption,

rehabilitation, able for young people, but he took a
look at it here in the context of this case, this
sentencing. He didn’t just acknowledge the young
people, which is not enough under Miller, but he
looked at it and says, not here. And as a judge, the
Court believes that the U.S. Supreme Court,
applicable case law, does allow for a judge to make
such a determination. In fact, Miller even says that
in those unique circumstances, those unique cases,
that, while not common, sometimes this type of a
sentence is appropriate. Judge Erickson considered
the appropriate factors, even retroactively applying
more, and he decided that a severe sentence, the
most

severe

under

North

Dakota

law,

was

warranted in regards to this matter. So I do believe
he considered permanent incorrigibility, irreparable
corruption,

and

concluded

that

Mr.

Garcia,

112a
unfortunately, was one of those folks. So

I

do

believe that Judge Erickson has fully complied with
the United States Constitution and the Constitution
of the State of North Dakota when imposing
sentence in July of 1996, including satisfactorily
complied with permanent incorrigibility, irreparable
corruption, as based upon his findings in the
transcript of July 2nd, 1996.
So based upon the above and foregoing, the
Court then, in regards to the motions for summary
disposition, the Court denies the petitioner Garcia’s
motion for summary disposition. The Court grants
the State’s motion for summary disposition. And the
petitioner Garcia’s post-conviction application is
denied and dismissed, for reasons as stated on the
record. So ordered by the Court.
Mr. Garcia, you keep in touch with your
attorney, Mr. Gereszek.
Mr. Burdick, if you’d prepare an appropriate
order

indicating

the

appearances

here

today,

indicating the ruling by the Court on the State’s
motion to dismiss, denying it, and then indicating
the ruling by the Court on the respondent State of
North Dakota’s motion for summary disposition

113a
granting it and then dismissing and denying the
post-conviction application for reasons as stated on
the record. No more finding or conclusion than that.
Simply, “for reasons as stated on the record,” Mr.
Burdick.
MR. BURDICK: Thank you, Your Honor. I
will do that.
THE COURT: Anything further, for the
petitioner?
MR. GERESZEK: No, Your Honor.
THE COURT: Anything further, for the
respondent?
MR. BURDICK: No, Your Honor. Thank you.
THE COURT: So ordered by the Court.
Good luck to you, Mr. Garcia.
We are adjourned.
(WHEREUPON,
concluded.)

the

proceedings

were

